<html>
<title> - TITLE IX AND SCIENCE</title>
<body><pre>[Senate Hearing 107-1117]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1117

                          TITLE IX AND SCIENCE

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 3, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                    U.S. GOVERNMENT PRINTING OFFICE
92-452                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel
                                 ------                                

             Subcommittee on Science, Technology, and Space

                      RON WYDEN, Oregon, Chairman
JOHN D. ROCKEFELLER IV, West         GEORGE ALLEN, Virginia
    Virginia                         TED STEVENS, Alaska
JOHN F. KERRY, Massachusetts         CONRAD BURNS, Montana
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi
MAX CLELAND, Georgia                 KAY BAILEY HUTCHISON, Texas
JOHN EDWARDS, North Carolina         SAM BROWNBACK, Kansas
JEAN CARNAHAN, Missouri              PETER G. FITZGERALD, Illinois
BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held October 3, 2002.....................................     1
Statement of Senator Wyden.......................................     1
    Article dated August 1, 2002, from The Associated Press, 
      entitled New Study says more Oregon students plan to major 
      in sciences, by Julia Silverman............................    45

                               Witnesses

Bayh, Hon. Birch, Venable, Baetjer, and Howard, LLP..............     3
    Prepared statement...........................................     8
Brown, Dr. April S., Professor and Chair, Department of 
  Electrical and Computer Engineering, Duke University...........    17
    Prepared statement...........................................    19
Greenberger, Marcia, Co-President, National Women's Law Center...    22
    Prepared statement...........................................    26
Jones, C. Todd, Deputy Assistant Secretary, Office for Civil 
  Rights, Department of Education................................    10
    Prepared statement...........................................    12
Murphy, Margaret ``Digit'', Head Coach, Women's Ice Hockey, Brown 
  University.....................................................    13
    Prepared statement...........................................    15
Richmond, Dr. Geraldine L., Richard M. and Patricia H. Noyes 
  Distinguished Professor, Department of Chemistry, University of 
  Oregon.........................................................    36
    Prepared statement...........................................    38

                                Appendix

American Association of Engineering Societies, prepared statement    57
WEPAN--Women in Engineering Program and Advocates Network, 
  prepared statement.............................................    59

 
                          TITLE IX AND SCIENCE

                              ----------                              


                       THURSDAY, OCTOBER 3, 2002

                                       U.S. Senate,
            Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The Subcommittee will come to order. Today, 
the Subcommittee on Science, Technology, and Space convenes the 
third in a series of hearings on the subject of women studying 
and working in math, technology, engineering, and the so-called 
hard sciences such as physics and chemistry. Congress may not 
be able to legislate away the entrenched attitudes of the math 
and science establishment that women are somehow second-class 
scholars in these fields, but as Chair of this Subcommittee I 
am determined to see the Title IX statute fully enforced to 
give women equal opportunity in the critical fields of science, 
engineering, and math education.
    As one of our witnesses today knows, the enforcement of 
that common sense rule has brought women much closer to parity, 
if not all the way, in high school and college sports. In my 
view, if Title IX can do that on the playing fields of this 
country, it ought to be able to do it in the classroom, where 
its help was originally directed, and making sure that Title IX 
protects women in and out of the sports arena is more important 
than ever before as the administration opens up a commission to 
review and possibly revise the Title IX rules.
    In June of this year, I laid down a new challenge before 
this Subcommittee. In this hearing room, I called on the 
Administrator of NASA, Sean O'Keefe, to determine how his 
agency could help triple the number of women graduating and 
working in math, science, and technology. At a hearing in July, 
Dean Kristina Johnson of Duke University Pratt School of 
Engineering encouraged the Subcommittee to pursue the 
enforcement of Title IX as a tool to ensure equal opportunity 
for women in math, science, and engineering education.
    Title IX is all about a simple principle. The entire 
statute reads, no person in the United States shall, on the 
basis of sex, be excluded from participation in, be denied the 
benefits of, or be subjected to discrimination under any 
education program or activity receiving Federal financial aid. 
The evidence of discrimination against women in math, science, 
and engineering is both empirical and it is anecdotal. The 
numbers raise your eyebrows, but the stories ought to raise 
your hackles.
    According to the National Research Council, young women 
studying science and math are pushed into traditional female 
roles such as teaching, while their male counterparts receive 
almost all the research fellowships that pay more completely 
for graduate school. Without a research background, women are 
less likely to obtain tenured track faculty positions. They 
earn less money and they lose the chance to encourage still 
more young women. And the discrimination does not stop with 
students; full professors who happen to be women tell stories 
of losing their lab space to associate professors who are male.
    The consequence of systematic discrimination is immediately 
visible to women across this country, and it is more subtly 
damaging to the country as a whole. The Hart-Rudman Commission 
on National Security warned that America's failure to invest in 
science and reform math and science education is the second 
biggest threat to our national security. Only the threat of a 
weapon of mass destruction in an American city is a greater 
danger. Yet in essence, 51 percent of the population is being 
actively discouraged from entering these fields that 
desperately need new experts and practitioners.
    Last week the Commerce Committee approved an amendment that 
I wrote with Senator Cleland. The amendment calls for a 10-year 
retrospective report on NSF program to promote participation of 
women, minorities, and persons with disabilities in science and 
engineering.
    This week, I intend to offer another amendment to the 
National Science Foundation authorization bill. I want the 
National Academy of Sciences to report on how universities 
support their math, science, and engineering faculties with 
respect to Title IX. This can cover hiring, promotion, tenure, 
even allocation of lab space.
    The Federal Government should share some of the spotlight 
on this issue as well. I intend to request the academy's report 
also detail how many Federal grants for scientific research are 
given to men and women, and why. It is time the Congress 
quantified and qualified the realities facing women in the 
sciences. Only then is it possible to come up with truly 
effective solutions.
    I also think it would be remiss today to not mention our 
late colleague, Congresswoman Patsy Mink. She made 
extraordinary contributions in this field, and was absolutely 
instrumental, as I know Senator Bayh recalls, in getting Title 
IX through the House. Sadly, Patsy Mink died this past weekend 
in Hawaii, and her obituary recalled that Title IX was one of 
the accomplishments she felt most strongly about.
    We have a terrific panel of witnesses from the 
administration. We welcome Mr. C. Todd Jones, Deputy Assistant 
Secretary for Civil Rights at the Department of Education, 
former Senator Birch Bayh, who I have long considered a friend 
and admired for all of his great work is here today, the author 
of the Title IX statute, Marcia Greenberger of the National 
Women's Law Center, who has testified before me in both the 
House and the Senate, and we acknowledge her outstanding work. 
Dr. Geraldine Richmond of the University of Oregon, we are 
pleased that you could be with us Dr. Richmond, Dr. April 
Brown, chair of the Duke University Department of Electrical 
and Computer Engineering, Coach Margaret ``Digit'' Murphy of 
the Brown University Women's Hockey Team, and Senator Reed in 
particular was so pleased that you could come, and while he is 
not a witness, special recognition goes to Brian Kevin, who 
turns 11 tomorrow, and where is Brian? Is he out in the 
audience? Why don't you stand up, and we are glad that you are 
in the cheering chorus for your mom. I am certain he is a 
strong supporter of Title IX.
    We thank all of you. This has been a busy session for this 
Subcommittee. We have been able to make contributions in the 
homeland security legislation with respect to creating a 
testbed to evaluate products to fight terrorism and the 
National Emergency Technology Guard.
    We began this session with a big success in terms of 
extending the Internet tax freedom legislation. Several weeks 
ago when we moved forward with an important bipartisan bill to 
promote nanotechnology, essentially, what we call the small 
sciences. In all of these areas Senator Allen, who could not be 
with us this afternoon, has been instrumental. This is 
potentially, and I use that word advisedly, the last hearing of 
this Subcommittee for this session, but in my view you cannot 
get any more important than this issue.
    I do not think that statute has been utilized as fully and 
as aggressively as it could be to deal with an issue that I 
think is of enormous importance to the country. It is an issue 
of basic fairness, and our country cannot afford to duck 
vigorous enforcement of Title IX as it relates to creating 
opportunities for women in the hard sciences. This may be late 
in the session, but those who have worked with me in the past 
know that when I feel strongly about something we do not tend 
to let it slide quietly by, and that is my plan here, so I very 
much appreciate all of you in coming.
    We will make your prepared remarks a part of the hearing 
record in their entirety, and we are very pleased that Senator 
Bayh could be here. If you really look in the last half-century 
at the names of those who have been there on the important 
civil rights issues and the important statutes that really made 
progress for this country in terms of creating opportunity, 
Birch Bayh's name shows up again and again and again.
    Senator Bayh, we thank you for all of your efforts on 
behalf of these important causes, we are very honored to have 
you here today, you may proceed with your statement.

STATEMENT OF HON. BIRCH BAYH, VENABLE, BAETJER, AND HOWARD, LLP

    Senator Bayh. Thank you very much, Mr. Chairman, and fellow 
panel members. It is a privilege to be here. I appreciate more 
than I can say all the compliments that you gave me. I wish my 
wife had been here to hear them all, and you could have left 
out a few of those again and again's. My back reminds me how 
old I am.
    [Laughter.]
    Mr. Chairman, I for one have marveled at your perseverance 
against great odds. It is a tribute to you and to the Committee 
that you would take your time in a very crowded Senate schedule 
to have these hearings on discrimination against women, 
particularly in the critical areas of mathematics, engineering, 
and hard sciences, which are probably one of the last vestiges 
where we have not really opened up the door and let the 
sunshine in. I hope this hearing will help us to do that.
    It is obvious that in the high tech world in which we are 
living today we cannot ignore the need to fully develop the 
talent of all of our citizens in these critical areas. I am a 
baseball fan. My dream in life was to be a professional 
baseball player, and somehow or another they discovered I could 
not hit--they discriminated against males who could not hit 
curve balls, so I am here just as a plain baseball fanatic. I 
think that to deny the society the benefit of women in these 
particular areas is somewhat like saying to the Arizona 
Diamondbacks that Randy Johnson, and to the New York Yankees 
that Roger Clemens would not be permitted to participate in 
these playoff games as we go down the road to the World Series.
    This is a special degree of talent that women will possess 
when fully trained, and that are sorely needed. Mr. Chairman, 
as much as you are a real student of discrimination across the 
board, permit me to suggest that for a complete and most 
alarming view of discrimination and its effect on our families 
and standard of living, and on our relationships between 
husbands and wives and the constant drain on our society as 
well, I highly recommend Ann Crittendon's book entitled, The 
Price of Motherhood.
    I used to read that at night before going to sleep, but I 
have to confess that in reading it I became so angry I could 
not go to sleep, so I stopped reading it, at least at that 
time. It will show the degree, the insidious nature in which 
this permeates our society and why we need to lay it to rest.
    The other witnesses on the panel here are extremely well-
versed. It is good to have the Department of Education so ably 
represented. I want to particularly say that it is a marvelous, 
fortuitous circumstance that Dr. Richmond would travel all the 
way across the country to be here today. She will contribute 
greatly, and she will have the chance to see her Senator in 
action, which she probably already has done before, and can be 
proud of him.
    I also suggest to my friends on the Committee that you read 
carefully the testimony and the statistical analysis provided 
by Marcia Greenberger's statement, take it home and put it 
under your bed and pillows at night--under your pillow, not 
your bed. Ms. Greenberger and the National Women's Law Center 
have over the years, about 30 years now, provided a service 
like a modern day Paul Revere, or should I say Abigail Revere, 
as far as a wake-up call for America in the area of 
discrimination against women. It is a privilege to have a 
chance to serve with Marcia, as well as the other members of 
this panel.
    It is appropriate and typical of the Senator from Oregon to 
point out the passing of Patsy Mink. I became involved in the 
legislative efforts to root out discrimination against women 
really back before Title IX, when we had a rather tortuous, 
lengthy effort to try to get the equal rights for women 
constitutional amendment passed. I would be remiss if I did not 
point out that Congresswoman Mink and many of her peers, such 
as Edith Green, Shirley Chisholm, Bella Abzug, Barbara 
Mikulski, Pat Schroeder, and others both within and outside the 
Congress, were responsible for moving forward to get the Equal 
Rights Amendment passed. Unfortunately it fell three 
legislatures short of becoming part of our Constitution, but 
also to move forward in Title IX, which could become law 
without the passage of a constitutional amendment.
    Most of the publicity with Title IX, Mr. Chairman, as you 
are aware, has been devoted to the accomplishments of women in 
the area of athletics, Olympic champions, World Cup soccer, 
championships, the annual trip to the final four of women's 
basketball, and in ice hockey I should say, out of respect to 
Coach Murphy. All of those athletic accomplishments are there 
for us to see. And I must confess, as one who wonders if you 
ever make a difference in this meat grinder up here where we 
work in Congress, I have to tell you that I have been told by 
countless numbers of these women who are presently 
participating that this would not have been possible for them 
to do personally were it not for the opportunity given to them 
by Title IX.
    Now, I must confess that athletics were in my heart. As you 
may know, Mr. Chairman, my father coached four sports at 
Indiana State, and I inherited all of his enthusiasm for 
athletics but not a lot of his talent. But with all of that 
love for athletics, I thought when we were moving forward with 
equal rights, I thought the greatest benefit to society 
generally would become an opening up of economic opportunities 
and academic opportunities that would be the basis for any 
economic opportunities.
    We looked at some of the discrimination going on. Women 
were not getting equal pay for equal work. Women were not 
treated equally in our court system. They were given more 
serious penalties, because women were not supposed to do that 
kind of thing, and so it was. But again, the one place that 
just leaped out at me was what was happening in the area of 
education, where twice as many scholarships would go to boys as 
girls, and the amount of those scholarships would be half as 
much, and on and on.
    Enrollment of women in higher education was in the 40's 
some place, in the low 40's when we passed Title IX. Today, I 
think we can say with some degree of pride and hope, that women 
constitute approximately 53 percent of the student bodies on 
the campuses. A careful, analytical analysis of the 
disparities, which has again been provided by Ms. Greenberger 
and the Women's Law Center, can show you the degree to which 
that discrimination exists, particularly in the area in which 
you call us together here today.
    We have faced a situation where traditionally, as you 
pointed out, at an early age boys and young men have been 
somewhat stereotyped to go down one path. They take vocational 
training in some of the more sophisticated science courses 
while women are basically trained to be homemakers and perhaps 
teachers in some of the liberal arts areas. But interestingly 
enough, it is really apparent that the wage difference between 
the stereotype for women's jobs as training through colleges 
and universities is significantly lower than that for men.
    Permit me to zero in on the one area of the several that 
you are covering here today as special education, and that is 
engineering. At some of our institutions, such as MIT and 
Berkeley, the percentage of entry-level students in engineering 
gets as high as almost 30 percent.
    If one looks at overall averages for the year 2001, 
students in the entering class for engineering, about 18 
percent got bachelors' degrees, 20 percent got masters' 
degrees, and Ph.D.s went to about 16.7 percent, while the 
faculty as a whole, women's faculty in the area of engineering 
constitute about 8.9 percent. That is in our country today, not 
prior to Title IX, and the senior faculty, about 4.4 percent of 
all the administrators in our engineering schools throughout 
the country, only about 2 percent of that number is women.
    Now, I am an optimist when I look at this rather depressing 
picture in the engineering area. I am an optimist because I 
think we can see what we have accomplished in some areas as a 
result of Title IX, and I do not see why we could not do the 
same thing in this particular area if we give it the kind of 
attention that I think your hearing is going to give it.
    Unfortunately, at the risk of offending some of you and 
your colleagues on the Committee, I do not think this problem 
is going to be solved by congressional awareness, or by passage 
of legislation. Congress can send a clear message to those in 
the Department of Education, the institutions of higher 
learning throughout the land, and the mothers and fathers, that 
this type of second class standard is not going to be accepted 
for our girls and our women.
    To solve this problem in the long run requires dealing with 
a more fundamental problem, it seems to me, that is really 
beyond our control immediately. In my judgment, this problem 
must be first addressed at the breakfast and the dinner tables, 
where mothers and fathers need to understand that equal 
opportunity should be expected for their daughters as well as 
for their sons.
    Psychiatrists tell us that observations conclude that young 
women or girls tend to decide for themselves early on in their 
lifetime what path they are going to be following from what 
they hear at home and what their parents expect of them, or 
what their peers are prepared to do. Perhaps by the tenth 
grade, if we do not have some sort of an impact, it is going to 
be more difficult to make an impact.
    The encouraging note, Mr. Chairman, as I jog around the 
American University soccer field, and see a public athletic 
field close by there, what used to be filled by little boys on 
Saturdays and Sundays now is occupied at least half of the time 
by little girls playing soccer, and so it is in the gymnasiums 
playing basketball, and on the softball field with the girls 
and young women playing softball. I think girls are 
participating in athletics basically because their parents urge 
them to do so. The father standing on the sidelines saying, 
``Annie, don't stand there, get that ball,'' is what fathers 
used to do for sons, and I think it is that kind of 
encouragement which has led women to excel as they have in the 
area of academics.
    Now, we recognize the significant participation, not as 
much as we would like to see in athletics, but it is important 
for us to understand that we need to have similar participation 
in the academic field, and I would hope that the Department of 
Education, which has required rigid standards toward 
compliance--I say toward compliance, because we are not fully 
there yet, but the Department of Education is doing its best to 
enforce those regulations, and we are moving toward compliance. 
I would like to see similar regulations established for 
academia, and I think that we would see a great deal of 
progress.
    I think we also need to look for role models for young 
women in the area of academia and in the private sector. We 
know about Chamique Holdsclaw, Cynthia Cooper, Mia Hamm and 
others, and so do our daughters, but it is important also for 
them to understand that there are also CEOs and members of 
corporate boards that are women.
    We stereotyped earlier on, when we first started Title IX 
and Equal Rights Amendment discussions, that we had it in our 
mind that young women should not apply to law schools or 
medical schools. Only an infinitesimally small number were 
permitted. Now, if you are in a law firm and you are recruiting 
for young lawyers, you are going to find in the upper 10 
percent at least half of them are women, and probably the 
number 1 student is a woman, and they make excellent lawyers. 
That is what we have learned, and we need to tell our daughters 
that that opportunity is available for them, and that it is 
also available for them in the other areas that you are 
studying here today.
    I think it is important to understand, as I laid out the 
sad statistical record, how in the world can that happen. Well, 
I had a lengthy discussion with somebody who I think can be a 
role model for a woman in the area of engineering. I cannot 
tell you how proud I was to pick up the Purdue University 
alumni magazine and find out that a distinguished woman by the 
name of Linda Katahe had been appointed dean of engineering of 
the Purdue University Engineering School.
    Now, 20 years ago that would have been unbelievable. That 
is the good news. The bad news is, she is only one of five 
deans of engineering out of 150 in the whole darn country.
    Now, we need to use her as an example of what can be 
accomplished. In discussing her and in reading I ask myself, 
what is it that deters students who want to go into engineering 
from either not doing so, or not proceeding on to the 
profession of engineering. Unfortunately I think the record 
shows that young women before they go into engineering, that is 
high school seniors, or perhaps even in junior and freshman and 
sophomore years, when they are thinking about changing courses 
and have an opportunity, they are talking to the peers that 
just preceded them. They are being told that the environment 
that they face in the engineering curriculum, in the 
engineering laboratory, is often a hostile one for young women.
    You find students that harass the women. You find some 
faculty members which are outright negative in their assessment 
of the women's capabilities right in an open classroom. Mr. 
Chairman, I think that students like that ought to be dismissed 
and faculty members ought to find some place else to work.
    But also, as you look at the promotion path to be a dean, 
you find it is sort of a tortuous path. You have to get in 7 or 
8 years before you can get tenure, and then before you get 
tenure in many, if not all of the institutions, you have to be 
approved by all of the faculty members in the engineering 
school. Most all of the faculty are men, and sometimes it is a 
secret vote. You wonder whether the male attitudes are 
uncomfortable with seeing women succeed. So it is when you go 
on up the ladder of promotion with the schools.
    Well, Mr. Chairman, you have been very kind. I succumbed to 
my tradition of speaking more than I should, but thank you for 
your patience, and for this opportunity to be heard.
    [The prepared statement of Senator Bayh follows:]

 Prepared Statement of Hon. Birch Bayh, Venable, Baetjer, and Howard, 
                                  LLP

    Mr. Chairman and Members of the Subcommittee, it is a privilege to 
have the opportunity to share some thoughts with you this afternoon on 
a subject which is near and dear to my heart. It is a tribute to the 
entire Committee that you recognize the subject of discrimination 
against women in those highly skilled areas of mathematics, engineering 
and the hard sciences as one of the most critical remaining vestiges of 
discrimination. In the high tech world in which we are living, we as a 
country cannot tolerate the underutilization of more than half of our 
population which happens to be women. To compete in today's world 
America must fully utilize all of its resources and we are far from 
meeting this goal in the education areas which are the subject of this 
hearing. To put it into today's terms, it is like telling the Arizona 
Diamondbacks that Randy Johnson and the New York Yankees that Roger 
Clemens will not be permitted to pitch in the early stages of the trip 
toward the World Series. Discrimination against women is to a great 
extent an unconscious, yet insidious fact of today's life. Most of our 
society does not realize that it exists. That makes the public 
awareness potential of your hearing extremely valuable.
    When I became involved with discrimination against women in a very 
personal way, I was blessed to have an Oklahoma wheat farmer's daughter 
as my bride. Marvella was an outstanding human being, extremely 
intelligent, and recognized with many honors at the tender age of 18, 
whose dream was to become a student at the University of Virginia. Upon 
application she was informed that girls need not apply. She provided me 
with a masters degree in awareness of how discrimination affected the 
lives of our women for the next 26\1/2\ years. I am presently blessed 
by my wife, Kitty, who has been providing me with a Ph.D. degree in 
awareness of how American women are treated in business and corporate 
society. To get a complete and alarming view of discrimination and its 
effects on our families and their standard of living, on the 
relationship between husbands and wives, and the consequent drain on 
our society's well-being, I highly recommend Ann Crittenden's The Price 
of Motherhood. It presents a truly frightening picture as far as 
equality is concerned. This Committee is dealing with a critical and 
perhaps least-known element of this hurdle in our efforts to see that 
all American citizens are treated equally, and that America realizes 
its full potential.
    The other witnesses on the panel are extremely well qualified to 
assist in your efforts. For a statistical analysis of this problem, I 
suggest that after reading my friend and colleague Marcia Greenberger's 
statement, you take it home and put it under your pillow at night. Ms. 
Greenberger and the National Women's Law Center have over the years 
served as modern-day Paul Reveres, or should I say Abigail Reveres, 
with a message of ``Wake up, America.'' Permit me to give you some 
personal reflections of what these statistics mean, and share my 
thoughts about some of the factors which should be considered as the 
Committee fulfills its responsibilities.
    From a policy perspective, I became involved in the legislative 
efforts to root out discrimination against women, as the principal 
Senate sponsor of the Equal Rights Amendment. Before proceeding 
further, I should point out that the death of Congresswoman Patsy Mink 
this week should remind us that she and many of her peers, Edith Green, 
Shirley Chisholm, Bella Abzug, Barbara Mikulski, Pat Schroeder and 
others both within and outside the Congress, worked tirelessly to 
achieve our common goal. I was shocked at the degree of discrimination 
that existed across the board. Women did not receive equal pay for 
equal work. Women were often treated more harshly by the nation's court 
system, because ``women are not supposed to commit such crimes.'' 
However, it was immediately apparent that the most egregious and 
damaging discrimination existed in the area of education. Tomes have 
been written about the fact that the future of our boys and girls and 
our country depends upon the quality of our education system. I need 
not repeat the impact of shortcomings in this area to the future well 
being of our country in today's high-tech environment to those of you 
who are well aware of this fact.
    Most of the publicity about Title IX's existence has been from the 
accomplishment of our women athletes. Olympic champions, the World Cup 
in soccer, Olympic medals, the annual trip to the Final Four in women's 
basketball, and the extraordinary capabilities of the women who nightly 
perform in the WNBA, have been visual reminders of what women athletes 
can accomplish. I have been told by countless numbers of these women 
personally involved that their opportunity to participate would not 
have been possible were it not for Title IX.
    I most confess that this athletic success warms my heart but it 
also reminds me that at the time we were considering the Equal Rights 
Amendment and Title IX, I thought that the greatest benefit would come 
from opening the doors of our education system so that girls, young 
women, faculty members and administrators could fully utilize their 
God-given talents in the academic area. As Marvella would remind me on 
occasion, ``We cannot ignore the need to develop the thought processes 
and talents of 52 percent of the nation's population.''
    We have made significant progress in opening the doors of education 
to America's young women in the last 30 years. Before Title IX, womens' 
enrollment in higher education was in the 40s. Today, women constitute 
approximately 53 percent of the student bodies on our campuses, however 
a careful statistical analysis of the disparities which exist among the 
various degree programs causes one to be less enthusiastic and to 
realize that, despite this progress, unacceptable elements of 
discrimination continue to exist. Marcia Greenberger and her associates 
at the National Women's Law Center have provided a detailed study which 
permits us to focus on where the problem of discrimination is greatest. 
At the risk of over simplifying a complex problem, boys and young men 
have, from an early age, been prepared to follow one educational track. 
Girls and young women have been sensitized to follow another. It has 
been the age old stereotyping in which educators have assumed that 
girls and young women are better qualified to fulfill certain roles in 
society and boys and young men have been educated to fulfill another.
    Prior to Title IX, our nation's education system provided boys with 
shop and vocational education and girls took home economics. The 
opportunity to train for jobs in the automotive, aviation, food and 
maritime trades was reserved almost entirely for boys. At the post-
secondary level, young men traditionally received training for jobs in 
trade and industry and technical occupations. At the same time young 
women were traditionally educated to be homemakers, teachers or in the 
health occupations and cosmetology, all of which were lower paying 
jobs. It is readily apparent that wages received in male-oriented 
occupations provided a better standard of living for the worker and his 
or her family.
    Permit me to zero in on one of the areas of education and that is 
engineering. Although at some institutions such as MIT and Berkeley the 
percentage of entry level students is 30 percent, if one looks at 
overall averages for the year 2001, students in the entering class 
averaged 18 percent, bachelor degrees 20 percent, and Ph.D. degrees 
16.7 percent. For the faculty as a whole, women faculty constituted 8.9 
percent and senior faculty 4.4 percent. Approximately 2 percent of 
executive positions were filled by women. This constitutes a dismal 
picture and it is easy to become depressed at the discrimination which 
exists in this area. Permit me to suggest that rather than dwell on 
failures, we recognize the successes which have been made in other 
areas of education. I am an optimist, I am confident that if our 
institutions of higher learning set the proper standards and follow the 
proper practices which are designed to accomplish the goal of equal 
education opportunities for women in the engineering field, we will 
reach this goal.
    Unfortunately, the problem cannot be solved by Congressional 
awareness or by passage of legislation. Congress can send a clear 
message to those in the Department of Education and the institutions of 
higher education throughout the land that present standards will not be 
accepted. However, to solve this problem in the long run requires 
dealing with a more fundamental problem. In my judgment, this problem 
must be addressed first at the breakfast and dinner tables where 
mothers and fathers need to understand that equal opportunity should be 
expected for their daughters as well as their sons. Psychiatrists have 
observed that young girls/daughters begin developing expectations for 
themselves at a very early age. It is encouraging to note that soccer 
and baseball fields and basketball courts are filled with girls at an 
early age on into high school. Those girls are participating in 
athletics because their parents have encouraged them to do so and have 
been on the sidelines encouraging them to participate and to be 
successful. Women would not now be participating at significant 
percentages in athletics at our colleges and universities and playing 
for the WNBA if it were not for encouragement at home or in the early 
ages of primary and secondary education. Also, it should be pointed out 
that the Department of Education had rigid requirements which were 
regularly enforced across the nation's athletic fields. Despite the 
notoriety and justifiable pride which has accompanied women's 
accomplishments in the athletic field, it is imperative to recognize 
that only a very small percent of the student body in our universities 
and colleges ever play varsity athletics.
    Also, it is critical to note that young women need role models 
which help them focus and develop self-esteem. In the athletic area 
they have Chamique Holdsclaw, Cynthia Cooper and Mia Hamm, but who are 
the role models in the academic area? Before Title IX women were 
suspect if not outright prohibited from studying in the areas of law 
and medicine. Today, in the upper 10 percent of most graduating classes 
you will find at least half of them are women, often the number one 
graduate is a woman. We need to inform our daughters of the 
accomplishments of women in corporations and businesses where numerous 
women are CEOs and serving on corporate boards. But what about the 
fields of engineering and science? Who do they have for role models? We 
need to alert our daughters to accomplishments in these areas. Of 
course, we recognize the exploits and the sacrifices of women 
astronauts such as Christina McAuliffe and Sally Ride. Permit me to use 
an excellent example of a peer model in the area of engineering. 
Recently, my alma mater, Purdue University, appointed a woman, Linda 
P.B. Katehi, as the university's Dean of Engineering. This is all well 
and good, but Dean Katehi is one of only 5 women deans out of the top 
150 engineering schools in the country. What happens to young women who 
determine to enter the engineering field? I have already cited the 
abysmal record in this area. Why do so few women choose engineering as 
a career? Here is only one snapshot. To advance as a faculty member, it 
is critical to be granted tenure. This status is not available until 
seven or eight years of faculty experience. Often the first stage to 
granting tenure is to receive the majority support of your peers on the 
faculty which is mostly constituted of men. Often the vote is held in 
secret and one cannot help but wonder whether male faculty members vote 
no because they are not comfortable to have female faculty members 
succeed. Permit me to suggest that the Subcommittee ask the Department 
of Education to allocate sufficient funds to establish specific 
criteria which must be met for institutions to comply with Title IX in 
the academic area. The Department should establish a system of careful 
examination and enforcement such as that which now exists in the field 
of athletics.
    I am sure that Members of the Subcommittee can, from their own 
experiences, develop ideas which will help provide little girls, older 
girls and young women with examples and programs which will result in 
them developing the self esteem and incentive to make their mark in 
areas where now they are not comfortable.
    Unbelievable as it may sound, often young women report that the 
reason for not pursuing an engineering education is that reports from 
women who have preceded them are to the effect that often male students 
have made life miserable for them and their professors have often 
exhibited outright hostility. If we mean business, I suggest that such 
students should be expelled and such professors should find new 
employment.

    Thank you for providing me with the opportunity to express my 
thoughts.

    Senator Wyden. Thank you very much, Senator Bayh, for your 
passion, this is a fight that you were willing to take on quite 
some time ago, and we are going to pick up where you left off, 
and we just so appreciate your outstanding comments.
    Mr. Jones.

         STATEMENT OF C. TODD JONES, DEPUTY ASSISTANT 
       SECRETARY, OFFICE FOR CIVIL RIGHTS, DEPARTMENT OF 
                           EDUCATION

    Mr. Jones. Good afternoon. Thank you, Mr. Chairman. I thank 
you and the Subcommittee today for the opportunity to testify, 
because it gives me an opportunity to discuss one of the most 
important civil rights laws in our Nation's history, Title IX 
of the education amendments of 1972.
    As you know, we just celebrated the 30th anniversary of 
this landmark legislation. Without a doubt, Title IX has opened 
the doors of opportunity for generations of women and girls to 
compete, to achieve, and to pursue their American dreams. I 
actually am too young to remember personally what schools were 
like prior to 1972, when Title IX first prohibited schools that 
received Federal funds from discriminating on the basis of sex. 
Back then, it was not uncommon for high school girls to be 
steered to courses that narrowed their future options. High 
schools routinely excluded girls from classes that stood to 
give them the skills to compete for higher paying jobs.
    Mr. Chairman, you asked me to speak today about Title IX 
and the sciences, increasing the number of women pursuing 
degrees and careers in math, engineering, and hard sciences. 
Fortunately, I am here to deliver good news. Society and 
education have changed since Title IX was passed, and Title IX 
played an important part.
    Title IX has contributed to the progress made by girls 
enrolled in high school math and science classes. Boys and 
young men previously dominated these fields to the extent that 
only an exceptionally gifted and talented female was thought 
able to take advanced math and science classes. Today, both 
male and female high school students are making strides in math 
and science. By 1999, nearly one half of the finalists in the 
Intel Corporation and Science Service, the competition that was 
formerly known as the Westinghouse Science Talent Search, were 
girls.
    In 1999, 2000, and 2001, the winners of Intel's largest 
scholarship were high school girls. Today, the majority of 
college students are women, and many are entering professions 
that once eluded them in the sciences. In 1972, only 9 percent 
of medical degrees went to women as compared to nearly 43 
percent today. Also in 1972, only 1 percent of dental degrees 
went to women as compared to 40 percent 2 years ago. The 
percentage of computer science graduates who are women doubled 
from 14 percent in 1972 to 27 percent in 1997. The percentage 
of engineering graduates who are women rose from 1 percent in 
1971 to 17 percent in 1997. Among the physical sciences majors, 
the proportion of women graduates was 15 percent in 1972 and 
rose to 37 percent in 1997. Half of all zoology graduates were 
women in 1997, versus 22 percent in 1972.
    OCR has supported this progress in part through conducting 
compliance reviews that focus on specific, systemic problems. 
For example, beginning in 1994, OCR conducted 15 broad-based 
compliance reviews that examined whether high schools and 
higher education institutions were discriminating against girls 
and women in math and science programs, but there are still 
areas for improvement. As a society, we must continue to avoid 
steering girls away from math and science, and continue to meet 
their developing interest in these areas. Title IX shares in 
the progress that they have made.
    Senator thank you for inviting me to testify on behalf of 
the administration today, and I look forward to any questions.
    [The prepared statement of Mr. Jones follows:]

Prepared Statement of C. Todd Jones, Deputy Assistant Secretary, Office 
               for Civil Rights, Department of Education

    Good afternoon. Thank you Chairman Wyden for that introduction. I 
thank the Chairman and all Members of this Subcommittee for the 
opportunity to testify before you today because it gives me the 
opportunity to discuss one of the most important civil rights laws in 
our nation's history: Title IX of the Education Amendments of 1972.
    As you know, we just celebrated the 30th anniversary of this 
landmark legislation. Without a doubt, Title IX has opened the doors of 
opportunity for generations of women and girls to compete, to achieve, 
and to pursue their American dreams. I am actually too young to 
remember personally what schools were like prior to 1972 when Title IX 
first prohibited schools that receive federal funds from discriminating 
on the basis of sex.
    Back then, it was not uncommon for high school girls to be 
``steered'' to courses that narrowed their future options. High schools 
routinely excluded girls from classes that stood to give them the 
skills to compete for higher paying jobs.
    Mr. Chairman, you asked me to speak today about Title IX and the 
sciences--increasing the number of women pursuing degrees and careers 
in math, engineering, and the hard sciences. Fortunately, I am here to 
deliver good news.
    Society and education have changed since Title IX was passed, and 
Title IX played an important part. Title IX has contributed to the 
progress made by girls enrolled in high school math and science 
classes. Boys and young men previously dominated these fields to the 
extent that only an exceptionally gifted and talented female was 
thought able to take advanced math or science courses. Today, both male 
and female high school students are making strides in math and science.
    By 1999, nearly half of the finalists in the Intel Corporation and 
Science Service (the competition formerly known as the Westinghouse 
Science Talent Search) were girls. In 1999, 2000, and 2001, the winners 
of Intel's largest scholarship were high school girls.
    Today, the majority of college students are women. And many are 
entering professions that once eluded them in the sciences:

  <bullet>  In 1972, only 9 percent of medical degrees went to women--
        as compared to nearly 43 percent in 2000.

  <bullet>  Also in 1972 only 1 percent of dental degrees went to 
        women--as compared to 40 percent two years ago.

  <bullet>  The percentage of computer science graduates who were women 
        doubled from 14 percent in 1972 to 27 percent in 1997.

  <bullet>  The percentage of engineering graduates who were women rose 
        from 1 percent in 1971 to 17 percent in 1997.

  <bullet>  Among physical science majors, the proportion of women 
        graduates was 15 percent in 1972 and rose to 37 percent in 
        1997.

  <bullet>  Half of all zoology graduates were women in 1997, versus 22 
        percent in 1972.

    OCR has supported this progress in part through conducting 
compliance reviews that focus on specific systemic problems. For 
example, beginning in 1994, OCR conducted fifteen broad-based 
compliance reviews that examined whether high schools and higher 
education institutions were discriminating against girls and women in 
math and science programs. But, there are still areas for improvement. 
As a society, we must continue to avoid steering girls away from math 
and science and continue to meet their developing interest in these 
areas. But unquestionably, this country has changed, and Title IX 
deserves to share the credit.
    Mr. Chairman, this month OCR will release a new document entitled 
``Title IX: Thirty Years Later.'' Many of these statistics are drawn 
from that publication, and while it has not returned from the printer 
yet, I have brought some bound versions of the page proofs for your 
review.

    Thank You. I will be happy to take your questions.

    Senator Wyden. Mr. Jones, thank you, and we will have 
questions in a few moments.
    Ms. Murphy, welcome.

STATEMENT OF MARGARET ``DIGIT'' MURPHY, HEAD COACH, WOMEN'S ICE 
                    HOCKEY, BROWN UNIVERSITY

    Ms. Murphy. It is a little different than being at the 
Frozen 4 press conference, but it is fun all the same. Thanks. 
It is certainly a pleasure to be here today. It is an honor. My 
name is Margaret ``Digit'' Murphy, and I am head coach of the 
Brown University Women's Hockey Team. I have been at Brown for 
14 years.
    You might be wondering what a college ice hockey coach has 
to say about educational opportunities for girls in math and 
technology. Let me begin by letting you know that a hockey puck 
travels 60 miles per hour because of the torque applied to the 
stick, which in turn creates a force on the puck and transfers 
momentum. I do not think I ever said those words in high 
school. Those are tough ones for a jock to get out.
    But seriously, the world of sports used to look like the 
world of math and technology, all boys and no girls. Today, 42 
percent of all high school and college athletes are female, and 
it is interesting to note that there has been 847 percent 
increase in girls participating in high school athletics since 
1972, 847 percent, but participating on the field, in the pool, 
or on the ice is only part of the story. There are huge 
benefits associated with athletics that go well beyond the X's 
and O's. Research studies show that girls who play sports enjoy 
greater physical and emotional health and are less likely to 
engage in a host of risky behaviors, drug use, smoking, 
drinking, than nonparticipants do.
    As a girls' ice hockey player growing up in Rhode Island I 
was an anomaly. Girls simply did not play ice hockey. Boys did. 
The only time it was acceptable for girls to be on the ice at 
that time was to be a figure skater and wearing a tutu. That 
was not something I wanted to do. It was difficult to grow up 
with that stigma that you did not engage in normal girls' 
sports like field hockey or softball, but the opportunity that 
ice hockey provided me to be recruited by an Ivy League school 
made it ultimately worthwhile.
    As a collegiate athlete at Cornell University from 1979 to 
1983, the team that I played on traveled in vans, stayed four 
players to a hotel room, had minimum per diem for meals, our 
equipment was self-provided, our ice time was what the men's 
team did not want, our head coach was paid little more than a 
volunteer, recruiting budgets were what our coach could pay out 
of his pocket, and administrative help was minimal. Strides 
have certainly been made in all areas of our sport. 
Unfortunately, we had to wait until 1995, after Cohen v. Brown, 
for Title IX to be enforced at my institution.
    Presently, our student athletes are Brown enjoy vastly 
different conditions than I did in 1979. Today's budgets are 
adequately funded in regard to team transportation, lodging, 
per diem, equipment, scheduling, facilities, ice time, and 
recruiting. We have three full-time coaches, myself and two 
assistants. These conditions of equitable treatment for women's 
hockey players can be seen throughout all NCAA programs in the 
country.
    The number of institutions sponsoring women's ice hockey 
has grown from nine collegiate teams in 1981 to 71 teams today. 
Collegiate participation in women's hockey has grown 392 
percent. Grassroots development of girls playing hockey in both 
the U.S. and Canada has grown as a result of Title IX and its 
trickle-down effect.
    In the U.S., the number of girls playing hockey has grown 
from 6,336 in 1990 to 39,693 in 2001. The Olympic movement for 
women's hockey was equally a beneficiary of Title IX. With so 
many women playing in our sport, the pool of Olympians has 
grown substantially. I am sure you all remember the first ever 
gold medal won in women's hockey in 1998 by the U.S. 
Unfortunately, we did not do so well last time, but there might 
be some lessons to be learned from our experiences in fighting 
for gender equity in the previously all-male sports 
environment.
    First, because the media is interested in sports, they 
produce report cards comparing men's and women's sports 
benefits and numbers. When these report cards made the 
educational institution look bad, change happened. Public 
embarrassment has a way of persuading schools that they had 
better get their acts together. Congress added the Equity in 
Athletics Disclosure Act in the late 1990's to be sure that 
report cards were issued in a public way, and now critical 
participation and expenditure data on college athletics is 
available on the web and used by the press to remind the 
schools of their obligations to comply, so my first 
recommendation is to require regular reporting of critical 
indicators on the status of girls and women in math and 
technology, hugely important.
    The second reason why sports has advanced more so than 
other Title IX areas is because there are many lawsuits brought 
by parents. I lived through one at Brown. Let me tell you, it 
was not pretty. To be employed at an institution that is 
completely committed to the equitable treatment of our students 
on all fronts, and to have the ultimate test of equity in 
athletics challenged and interpreted, pitted the male 
population against the female population.
    To this day, there are lasting implications of the lawsuit. 
Lawsuits are not good. They put parents, kids, and educational 
institutions at each other's throats, rather than looking for 
solutions. The Office of Civil Rights must do a better job 
enforcing the law. These types of situations should not 
continue to exist.
    The third and most important reason why Title IX was a 
success--there needs to be more done, however--is because the 
newspapers, always preoccupied with controversy in sports, 
served as an effective mechanism for educating the American 
public. When parents understood their daughters' rights, they 
used the mechanisms of civic engagement for holding school 
boards accountable, to bring lawsuits, to make educational 
institutions responsive.
    We must require our schools to educate students and their 
parents about Title IX. Unfortunately, math and technology are 
not sexy enough to get free press, but as the parent of a 7-
year-old girl, I firmly believe that if parents were more 
informed of opportunities or lack thereof for their daughters 
in the math and sciences, they would be as vocal and as engaged 
as they are in their quest for equality in athletics.
    In athletics, we have learned that it is really the 
intangibles that count. At Brown, our philosophy statement 
calls for the development of the total person. We focus on the 
process of being a team, and not the end result. Our athletes 
learn the values of teamwork, cooperative learning, discipline, 
personal responsibility, and commitment. These are the life 
lessons we teach through athletics that help our athletes when 
they continue on to their careers.
    Teachers encourage girls to play, showing up for the games 
and celebrating their victories. Teachers and administrators 
must inspire, encourage, and motivate young girls in the same 
way that they inspire, encourage, and motivate the young boys. 
We cannot allow educators to come to the stereotypical belief 
about boys being more interested in math and science than 
girls. Stereotyping has a way of becoming a self-fulfilling 
prophecy. We cannot allow this to happen to our children.
    On a final note, I would like to convey the immediacy of 
this problem with the recent appointment of the Commission on 
Title IX by the Bush administration. If Title IX is weakened, 
it will not only have a profound impact on athletics, it will 
send a clear message that maintaining and progressing 
opportunities for our daughters in all program areas is not a 
priority.
    I would like to close by conveying the message that girls 
hit hockey pucks, girls are great mathematicians, girls check, 
and girls love technology. If you create an environment that 
sends such a message to girls, they will come.
    Thank you so much for having the opportunity to speak to 
you guys today.
    [The prepared statement of Ms. Murphy follows:]

 Prepared Statement of Margaret ``Digit'' Murphy, Head Coach, Women's 
                      Ice Hockey, Brown University

    You might be wondering what a college ice hockey coach has to say 
about educational opportunities for girls in math and technology. Let 
me begin by letting you know that a hockey puck travels 60 miles per 
hour because of the torque applied to the stick which in turn creates a 
force on the puck and transfers momentum.
    Seriously, the world of sport used to look like the world of math 
and technology--all boys and no girls. Today, 42 percent of all high 
school and college athletes are female. And it is interesting to note 
that there has been an 847 percent increase in girls participating in 
high school athletics since 1972. But participating on the field, in 
the pool, or on the ice is only one part of the story. There are huge 
benefits associated with athletics that go beyond the X'S AND O'S! 
Research studies show that girls who play sports enjoy greater physical 
and emotional health and are less likely to engage in a host of risky 
behaviors (ie. drug use, smoking, drinking) than non-participants.\1\
---------------------------------------------------------------------------
    \1\ Title IX at 30: Report Card on Gender Equity, Women's Sports 
Foundation June 2002
---------------------------------------------------------------------------
    As a girls' ice hockey player growing up in RI, I was an anomaly. 
Girls simply didn't play ice hockey. Boys did. The only time that it 
was acceptable for girls to be on the ice at that time was to be a 
figure skater. It was difficult to grow up with the stigma that you did 
not engage in ``normal'' girls' sports like field hockey or softball. 
But the opportunity that ice hockey provided me: to be ``recruited'' by 
an Ivy League school made it ultimately worthwhile.
    As a collegiate athlete at Cornell University from 1979-1983, the 
team that I played on traveled in vans, stayed four players to a hotel 
room, had minimum per diem for meals, our equipment was self provided, 
our ice time was what the men's team didn't want, and our head coach 
was paid little more than a volunteer. Recruiting budgets were what our 
coach could pay out of his own pocket, and administrative help was 
minimal.
    Strides have certainly been made in all areas of our sport. 
Unfortunately, we had to wait until 1995 after Cohen v. Brown for Title 
IX to be enforced at my institution.
    Presently, our student athletes at Brown enjoy vastly different 
conditions than I did in 1979. Today's budgets are adequately funded in 
regard to team transportation, lodging, per diem, equipment, 
scheduling, facilities, ice time, and recruiting. We have three full 
time coaches--myself and two assistants. These conditions of equitable 
treatment for women's hockey players can be seen throughout all NCAA 
programs in the country.
    The number of institutions sponsoring women's hockey has grown from 
9 collegiate teams in 1981 to 71 teams today. Collegiate participation 
in women's hockey has grown 392 percent \2\ Grass roots development of 
girls playing hockey in both the U.S. and Canada has also grown as a 
result of Title IX and it's trickle down effect. In the U.S., the 
number of girls playing hockey has grown from 6,336 in 1990 to 39,693 
in 2001 \3\. The Olympic movement for women's hockey was equally a 
beneficiary of Title IX. With so many women playing our sport, the pool 
of Olympians has grown substantially. I'm sure that you all remember 
the first ever gold medal won in women's hockey in 1998 by the United 
States.
---------------------------------------------------------------------------
    \2\ NCAA Year-By-Year Sports Participation 1982-2001
    \3\ USA Hockey Website 2002
---------------------------------------------------------------------------
    There might be lessons to be learned from our experiences in 
fighting for gender equality in a previously all-male sport 
environment:

        1. Because the media is interested in sport, they produced 
        ``report cards'' comparing men's and women's sports benefits 
        and numbers. When these report cards made the educational 
        institution look bad, change happened. Public embarrassment has 
        a way of persuading schools they had better get their acts 
        together. Congress added the Equity in Athletics Disclosure Act 
        in the late `90s to make sure the report cards were issued in a 
        public way and now critical participation and expenditure data 
        on college athletics is available on the web and used by the 
        press to remind schools of their obligations to comply. So, my 
        first recommendation is to require regular reporting of 
        critical indicators on the status of girls and women in math 
        and technology.

        2. The second reason why sport has advanced more so than other 
        Title IX areas is because there were many lawsuits brought by 
        parents. I lived through one at Brown. Let me tell you it was 
        not pretty. To be employed at an institution that is so 
        completely committed to the equitable treatment of our students 
        on all fronts, and have the ultimate test of equity in 
        athletics challenged and interpreted pitted the male population 
        against the female population. To this day there are lasting 
        implications of the lawsuit. Lawsuits are not good. They put 
        parents, kids and educational institutions at each other's 
        throats rather than looking for solutions. The Office of Civil 
        Rights must do a better job enforcing the law. These types of 
        situations should not continue to exist.

        3. The third and most important reason why Title IX was a 
        success (there is more to be done however) is because the 
        newspapers, always preoccupied with controversy in sports, 
        served as an effective mechanism for educating the American 
        public. When parents understood their daughter's rights, they 
        used the mechanisms of civic engagement--from holding school 
        boards accountable to bring lawsuits--to make the educational 
        institution responsive. We must require our schools to educate 
        students and their parents about Title IX. Unfortunately, math 
        and technology aren't sexy enough to get free press. But as the 
        parent of a 7 year old girl, I firmly believe that if parents 
        were more informed of the opportunities or lack thereof for 
        their daughters in math and science, they would be as vocal and 
        engaged as they are in their quest for equality in athletics.

        4. In athletics we learned that it is really the intangibles 
        that count. At Brown, our philosophy statement calls for the 
        development of the total person. We focus on the process of 
        being a team, and not the end result. Our athletes learn the 
        values of teamwork, cooperative learning, discipline, personal 
        responsibility, and commitment. These are the life lessons that 
        we teach through athletics that help our athletes when they 
        continue on to their careers. Teachers encourage girls to play, 
        showing up for their games and celebrating their victories. 
        Teachers and administrators must inspire, encourage and 
        motivate young girls in the same way that they inspire, 
        encourage and motivate young boys. We cannot allow educators to 
        succumb to stereotypical beliefs about boys being more 
        interested in math and science than girls. Stereotyping has a 
        way of becoming a self-fulfilling prophecy. We cannot allow 
        this to happen to our children.

    On a final note, I would like to convey the immediacy of this topic 
with the recent appointment of the Commission on Title IX by the Bush 
administration. If Title IX is weakened, it will not only have a 
profound impact on athletics but will send a clear message that 
maintaining and progressing opportunities for our daughters in all 
program areas is not a priority.
    I would like to close by conveying the message that, girls hit 
hockey pucks, girls are great mathematicians, girls check and girls 
love technology. If you create environments that send such messages to 
girls, they will come.

    Thank you for the opportunity to speak with you today. I welcome 
any questions.

    Senator Wyden. Thank you. It is an excellent statement, and 
on your point that girls hit hockey pucks and girls are capable 
of making big contributions in the hard sciences is an 
excellent one. Let me just add, when girls are doing all that 
hard work, Congress is going to make sure that Title IX is 
enforced, and I want to thank you again for an excellent 
statement.
    Dr. Brown.

     STATEMENT OF DR. APRIL S. BROWN, PROFESSOR AND CHAIR, 
             DEPARTMENT OF ELECTRICAL AND COMPUTER 
                  ENGINEERING, DUKE UNIVERSITY

    Dr. Brown. Thank you. Mr. Chairman and congressional staff, 
thanks. I am honored to have this opportunity to talk to you 
about my perspective on how we can apply an existing law, Title 
IX, to increase the number of women engineers and scientists, 
and I know that you have been working, as you said, for a 
number of months on identifying the barriers that face women in 
science and engineering, so I am going to focus, from my 
experience, on a specific barrier, and then how Title IX can be 
used to eliminate that barrier.
    I am a professor in the field of electrical and computer 
engineering. Like many other women engineers, I considered 
engineering as a career because I had an engineer, in my case 
my father, who was an engineer, in the family. We really must 
reach a point in this country where we do not have to rely on 
family members to interest girls in engineering, and where we 
are committed as a society to the participation of girls and 
women in engineering and the sciences. We must develop role 
models in order to do this, successful and visible women 
engineers and scientists in the academy, in industry, and in 
Government.
    My specific focus is on the success of women engineers in 
sciences in the academy. They are the role models and shapers 
of education and research. Their experience starts in graduate 
school, as this is the initial training ground of our future 
professors. We must increase the number of women faculty 
members in science and engineering to increase the number of 
women and engineers in the work force.
    Women students are drawn to women faculty, and they seek 
them out. Studies have shown that women faculty members are the 
primary research advisors to a larger number of female students 
than men. Many women are lost along the way if they cannot 
identify and relate to a teacher for guidance toward a 
successful career. My own experience certainly bears this out. 
When I was a graduate student at Cornell University, I joined a 
group led by Professor Lester Eastman, who actively sought out 
female graduate students, which was a rarity at that time. When 
I took my place on the faculty at Georgia Tech in 1994, female 
students sought me out in turn. My first two Ph.D. students 
were women.
    Women graduate students and engineers in the professorate 
have different experiences than men. The MIT Study on the 
Status of Women in the Sciences made headlines in 1999, when 
the university unveiled its self-assessment showing that women 
received a smaller share of important resources, including 
space, startup research funding, salary, et cetera, in 
comparison to men.
    In 1998, I co-chaired the Task Force on Opportunities for 
Women in Engineering at Georgia Tech, and this showed that 
women were significantly concerned about the balance of work 
and family and achievement in their field in the university. 
Just last week, the University of Michigan unveiled its climate 
study, which showed similar outcomes.
    Studies have shown that women have less access to important 
resources, fewer mentors, fewer graduate students, and they 
serve on more Committees than men, but they do not Chair 
Committees as often as men. Social and organizational practices 
are both important, and their interplay creates this 
inequitable situation, and Senator Bayh mentioned the example I 
am going to discuss for a minute, which is that of the tenure 
and promotion process. This faces all tenure-track faculty 
members.
    Tenure decisions are made approximately 7 years after entry 
into the professorate at the assistant professor rank. The 
model for this evaluation assumes a trajectory for career 
success after attaining a Ph.D. or completing a post-doc that 
does not take into account that this is also the prime time for 
having children and starting families. Research by Dean Sue 
Rosser at Georgia Tech shows that balancing a career and family 
is, in fact, the most significant challenge facing women 
engineers and scientists today.
    I was personally quite taken by this when I moved from 
industry to the university in 1994. I had my first child at 
Hughes Research Lab, and then a year later moved to Georgia 
Tech and found that many women felt they must forego childbirth 
and child rearing until after achieving tenure. Since tenure is 
often awarded in a person's early to mid-thirties, peak 
fertility is bypassed by doing this, and this is an incredible 
disincentive to women in the academy.
    So how can we use Title IX to help women graduate students 
and faculty in the academy? During the past 30 years, Title IX, 
as we heard here, has created tremendous change in athletics. 
Now is the time we must use its power for science and 
engineering, with the hope that the results will be as 
dramatic. Universities must comply with Title IX to receive 
Federal funding. The Government can and should do more to 
ensure compliance in the specific areas of educational 
opportunities for women in science and engineering.
    First, since graduate programs across the Nation are the 
primary training ground for our future faculty members, 
universities can be required under Title IX to create more 
institutional graduate support, such as scholarships for women 
graduate students. Successful recruiting and retention of women 
in graduate school creates the new faculty members we need.
    Second, engineering programs can and should do more to 
ensure that their female faculty members and students have an 
equitable share of the resources provided by the institution. 
Title IX can be used to ensure that the financial aid and 
research support are equitably distributed among graduate 
students.
    Third, university leaders must be accountable for the work 
environment they steward. They can be held accountable under 
Title IX provision for continuous improvement in the 
environment for women, and there are many approaches for doing 
this that will address the student and faculty needs. For 
faculty, these include better work-family policies, including 
tenure clock extension, and for students these could include 
requiring mentoring programs such as women in engineering 
programs.
    Federal funding is critical to science and engineering, and 
we must ensure that women principal investigators are well-
represented in funding agencies, research, and education 
portfolios. The NSF has been proactive in its goal to support 
more women scientists and engineers through specific programs, 
and one such program, called Advance, supports not only 
individual women but activities that lead to institutional 
change. This type of program could prove to be a model.
    In conclusion, I would just like to say from my experience 
dedicated leadership clearly does lead to positive change. When 
I moved from Georgia Tech to Duke University in July of this 
year, Dean Kristina Johnson at the Pratt School of Engineering 
had just completed a year of hiring new faculty in which she 
hired--over 50 percent of the entering new faculty were women, 
which was really an incredible thing to occur in an engineering 
program, so the growth of the women faculty members will 
profoundly affect the environment of the women faculty and 
students alike.
    As my closing statement I would just say, as the mother of 
two boys that I actively encourage and hope some day may decide 
to be engineers, I fully believe these changes will benefit 
them as well as their female friends.
    [The prepared statement of Dr. Brown follows:]

    Prepared Statement of Dr. April S. Brown, Professor and Chair, 
   Department of Electrical and Computer Engineering, Duke University

    Senator Wyden, Members of the Subcommittee on Science, Technology 
and Space, and congressional staff, I am pleased and honored to have 
the opportunity to share my perspective with you today on how we can 
take important steps to remove a formidable threat to our future: the 
declining number of engineers and scientists. Our opportunity today is 
to consider how we can apply an existing law, Title IX of the Education 
Amendments of 1972, to increase the number of women engineers and 
scientists.
    This panel has already heard compelling testimony that describes 
how the shrinking pool of scientists threatens our national security, 
including a citation of the Hart-Rudman Commission on National Security 
to 2025, which warned that America's failure to invest in science and 
to reform math and science education was the second biggest threat to 
our national security; and NASA Administrator Sean O'Keefe's revelation 
that NASA's current over-60 workforce is three times larger than its 
under-30 workforce.
    I know you are well aware of the barriers to success women and 
girls face in scientific and technological careers from your previous 
work on this Committee, so I will focus today on the opportunity 
provided by Title IX to eliminate them.
    Though its most visible success has been in athletics, Title IX is 
an education law, not a sports law. Universities and governmental 
funding agencies can apply Title IX toward bringing more women into 
careers in science and engineering. The resulting pool of scientists 
and engineers will be larger and more diverse, which means we as a 
nation will be better prepared for the technological challenges our 
future will bring.
    I am a professor in the field of electrical and computer 
engineering. Like many other women engineers, I considered engineering 
as a career because I had an engineer--my father--in the family. We 
must reach a point in this country where we do not have to rely on 
family members to interest girls in engineering, and where we are 
committed as a society to the participation of girls and women in 
engineering. We must develop role models--successful and visible women 
engineers in academia, industry, and the government. Role models show 
young women that they, too, can do it! Role models are especially 
critical at educational transitions from high school to college and 
then on to graduate school. It is during these transitions that we lose 
many women on the journey to full and successful careers in engineering 
and science.
    Reasons why we lose many would-be engineers include inadequate math 
and science preparation in K-12 education, the poor public 
understanding of engineering, and the traditional delivery of 
engineering education, but my specific focus is on the success of women 
engineers in the academy. They are the role models and shapers of 
education and research. Their experience starts in graduate school--the 
initial training ground of our future professoriate.
    We must increase the number of women faculty members in science and 
engineering to increase the number of women engineers and scientists in 
the workforce. Less than 10 percent of engineering faculty members are 
women. My field, electrical and computer engineering, is the most 
rapidly growing engineering discipline. Yet in ECE, only 7 percent of 
the professoriate are women. Even the engineering programs with the 
highest percentages of female faculty in the country have less than 30 
percent women.
    Women science and engineering faculty members are necessary for an 
excellent engineering education. William Wulf, president of the 
National Academy of Engineering, identified diversity as a key 
imperative for an agenda for change in his article ``A Makeover for 
Engineering Education,'' in the journal Issues in Science and 
Technology, Spring 2002. He states, ``Our creative field is deprived of 
a broad spectrum of life experiences that bear directly on good 
engineering design.'' He's saying that engineering is about solving 
problems, and the more viewpoints that examine a problem, the better 
the chances of solving it. The undergraduate and graduate educational 
experience shapes our future engineers and scientists. A diverse 
faculty offers a much richer educational and research experience to 
these students.
    Women students are drawn to women faculty and seek them out. 
Studies have shown that women faculty members are the primary research 
advisors to a larger number of female students than men (Mary Frank 
Fox, in Equal Rites, Unequal Outcomes: Women in American Research 
Universities, edited by L. Hornig. New York: Kluwer Academic/Plenum 
Publishers, 2002). Many women are lost along the way if they cannot 
identify and relate to a teacher for guidance toward a successful 
career. My own experience bears this out. I joined a graduate research 
group at Cornell University led by Professor Lester Eastman, who 
actively sought out female students--a rare occurrence at the time. I 
worked most closely with other women in my group. When I took my place 
on the faculty at the Georgia Institute of Technology in 1994, female 
students sought me out. My first two Ph.D. students were women: Dr. 
Carrie Carter-Comen and Dr. Georgiana Dagnall.

Understanding the Barriers to Women Scientists and Engineers in the 
        Academy
    Women graduate students and engineers in the professoriate have 
different experiences from men. The MIT Study on the Status of Women in 
Sciences made headlines in 1999 when the university unveiled its self-
assessment showing that women received a smaller share of important 
resources: space, start-up research funding, etc. in comparison to men. 
In 1998, I co-chaired the Task Force on Opportunities for Women in 
Engineering at Georgia Tech that showed that women are significantly 
concerned about the balance of work and family. Just last week, the 
University of Michigan unveiled its climate study on women faculty in 
science and engineering.
    Studies have shown that women have less access to important 
resources than men. Women report fewer mentors than men. Women have 
fewer graduate students than men. Women serve on more committees than 
men, yet they do not Chair Committees as often as men.
    Research done by Mary Frank Fox, a sociologist at Georgia Tech, 
shows that engineers and scientists must be part of social networks for 
success in their fields. Developing collaborations, attracting the best 
graduate students to their laboratories, receiving guidance through 
mentors, and being asked to serve on important conference committees 
are critical to career success and happen through social interactions. 
The environment is created by the interplay of social processes and 
organizational policies and practices, such as ways in which people are 
evaluated and rewarded. They cannot be separated from each other.
    Professor Virginia Valian, a psychologist at Hunter College, shows 
in her recent book Why So Slow: the Advancement of Women that despite 
general gains we have made in understanding the personal and social 
ills created by discrimination, day-to-day decisions that impact people 
are often unconsciously made on the basis of generalizations, or 
schemas. These schemas, still supported by media images, tell us that 
engineering remains a ``masculine'' profession, and women are less 
likely than men to attain success in science and engineering. Women 
find themselves disadvantaged by the cumulative effects of a succession 
of decisions based on these schemas that place more resources in the 
hands of their male colleague down the hall.
    Organizational practices and policies are just as critical. One 
example is the tenure and promotion process that faces all tenure-track 
faculty members. For most of us, tenure is more about continuing on in 
our positions, than about a lifetime job guarantee. Tenure is granted 
to the successful faculty member by an in-depth evaluation of his or 
her research and educational contributions by peer faculty committees. 
Gender schemas obviously come into play in this process. Tenure 
decisions are made approximately seven years after entry into the 
professoriate at the assistant professor rank. The model for evaluation 
assumes a trajectory for career success after attaining the Ph.D. that 
does not take into account that this is also the prime time for having 
children and starting families. Research by Dean Sue Rosser at Georgia 
Tech (Journal of Women and Minorities in Science and Engineering, vol. 
8, pp. 163-191, 2002) shows that balancing a career and family is, in 
fact, the most significant challenge facing women engineers and 
scientists today.
    I was personally quite taken by the real impact the timing of 
tenure and promotion has on people when I moved from industry to the 
academy. I had my first child after earning my Ph.D. and while working 
at Hughes Research Laboratories. When I joined Georgia Tech one year 
later as an associate professor, I learned that many women feel they 
must forgo childbirth and rearing until after tenure. Since tenure 
often is awarded in a person's early to mid-thirties, peak fertility is 
bypassed. This is an incredible disincentive to women in the academy.

How can we use Title IX to help
    Title IX's regulations require institutions that receive federal 
funding to provide equitable athletic opportunities for all students, 
regardless of sex, in three separate areas: participation, treatment of 
athletes, and athletic scholarships. But Title IX does not just apply 
to athletics. The law states that ``No person in the United States 
shall, on the basis of sex, be excluded from participation in, be 
denied the benefits of, or be subjected to discrimination under any 
educational program or activity receiving federal financial 
assistance.''
    During the past 30 years, Title IX has created tremendous changes 
in athletics. Now is the time to use its power for engineering and 
sciences, with the hope that the results will be as dramatic.
    Universities must comply with Title IX to receive federal funding. 
The government can and should do more to ensure compliance in the 
specific area of educational opportunities for women in science and 
engineering.
    First, since graduate programs across the nation are the primary 
training ground for the professoriate of the future, universities could 
be required under Title IX to create more institutional graduate 
support (scholarships) for women graduate students. Successful 
recruiting and retention of women in graduate school creates the new 
faculty members we need to attract more women undergraduates to science 
and engineering.
    Second, engineering programs can and should do more to ensure that 
their female faculty members--and students--have an equitable share of 
the resources provided by the institution. Title IX can be used to 
ensure that both financial aid and research support are equitably 
distributed among graduate students.
    Third, university leaders must be accountable for the work 
environment they steward. They can be held accountable under Title IX's 
provision of continuous improvement of the environment for women, and 
there are many approaches for doing that for both students and faculty 
members. For faculty, these include better work-family policies, 
including tenure clock extensions. For students, these include 
supporting mentoring opportunities, such as Women in Engineering 
programs.
    Federal funding is critical to science and engineering, and we must 
ensure that women principal investigators are well represented in 
funding agencies' research and education portfolios. The NSF has been 
proactive in its goal to support more women scientists and engineers 
through specific programs. One such program, ADVANCE, supports not only 
individual women, but activities that lead to institutional change. 
This program may prove to be a model for the type of organizational 
change we need in the academy.

Conclusion
    Dedicated leadership clearly leads to great positive change. One 
reason for my move from Georgia Tech to Duke University was the 
representation of women leaders in the highest positions at Duke: Dean 
Kristina Johnson at the Pratt School of Engineering and President Nan 
Keohane. President Keohane has spearheaded a campus-wide initiative on 
the status of women at Duke. Through Dean Johnson's leadership, more 
than half of the faculty members hired in the Pratt School this past 
year are women. The growth of women faculty members in the Pratt School 
will profoundly affect the environment for women faculty members and 
students alike.
    As the mother of two boys that I hope will someday consider 
becoming engineers, I fully believe that these changes will benefit 
them as well as their female friends.

    Senator Wyden. Thank you. Very helpful.
    Ms. Greenberger, welcome.

STATEMENT OF MARCIA GREENBERGER, CO-PRESIDENT, NATIONAL WOMEN'S 
                           LAW CENTER

    Ms. Greenberger. Thank you very much, Senator Wyden. Thank 
you for your leadership in this most important area, for 
holding these hearings, and for all of the other areas that you 
have been such an important force for advancing the interest of 
women and families both in the House of Representatives and now 
in the Senate. We are very grateful for all that you have 
accomplished, and look forward to your leadership in this area 
in the future.
    With me are Jocelyn Samuels and Leslie Annexstein from the 
National Women's Law Center, who have been working tirelessly 
on the issue of Title IX across the board, and two new 
advocates beginning their careers with the National Women's Law 
Center working on this testimony, Melissa McKenna and Erin 
Fitzpatrick. It takes a lot of effort and time to chronicle the 
kinds of problems that this Committee has been studying and 
identifying in the area of women in science and engineering, 
and it takes sustained effort.
    One of the important lessons that athletics has taught us, 
is that it has been a sustained effort with public attention, 
as has been pointed out, that has been required to get women as 
far as they have in the area of athletics, and we know with 
only 32 percent of athletics budgets, for example, going to 
women, even with the progress there is much more to be done in 
that area, let alone the areas we are discussing today.
    It is also a great pleasure to be here with the other 
Members of this Committee, but I have to single out Senator 
Bayh for his extraordinary leadership not only in pushing Title 
IX forward--without his leadership we would not have a Title 
IX--but that leadership has continued over time through 
assaults on Title IX and up to this day. With those assaults, 
Senator Bayh speaking out and being a champion in our quarter 
is really a wonderful asset.
    The Center, as Senator Bayh has said, was founded 30 years 
ago, just as Title IX was passed. We work in the areas of 
education, employment, health and reproductive rights, and 
economic security for women, and so it is no accident that 
Title IX has been a central part of our focus over those years.
    One thing to point out about Title IX that is so important 
to focus on, especially for this Committee, is that of course 
it applies, as has been pointed out, to elementary and 
secondary schools and colleges and universities across the 
country, but it also applies to other education programs and 
activities, whether they are part of schools or not, that 
receive Federal funds. That means research labs, whether they 
are connected to universities or not. They can be in academic 
settings or they can be in commercial settings.
    Title IX has an extraordinary reach and promise, and it is 
exactly right that it has not been given the kind of 
enforcement and attention that is necessary in this area. I 
will not repeat some of the statistics that have been discussed 
today about the serious under-representation of women in math 
and science and engineering and technology, and I appreciate 
our statement being introduced for the record that goes through 
those statistics.
    I do want to say two quick things. First of all, we are not 
seeing a steady improvement across the board. These problems do 
not improve on their own. One very distressing fact is a 
downward trend, for example, in the number of women receiving 
bachelor's degrees in computer and information sciences, which 
reached a high of 37 percent in 1984, but dropped to 28 percent 
in 1999 to 2000. And while the Department of Education official 
rightly pointed to progress of 1 percent to 17 percent in 
engineering, for example, from the passage of Title IX to 
today, who could be satisfied with a 17 percent figure as a 
testament to what Title IX has accomplished.
    Senator Wyden. Ms. Greenberger, let me make sure I got that 
number. You said that the number of women graduating in 
computer science has dropped, 9 percent, did you say, from 37 
to 28?
    Ms. Greenberger. Yes, from 1984 to 1999-2000.
    Senator Wyden. Just out of curiosity, while we are on this 
point, do you disagree with that, Mr. Jones?
    Mr. Jones. I am actually not aware of what the specific 
number is. I assume that is from the Digest of Educational 
Statistics from the Department of Ed.
    Ms. Greenberger. I know it is footnoted in the written 
testimony.
    Senator Wyden. We will get into some of these issues in 
questions. Excuse me.
    Ms. Greenberger. And I did want to point out one other 
important statistic that shows that we are not always making 
progress, even slow progress. The gap between the median annual 
salaries of men and women in science and education occupations 
has increased over time. In 1999, women earned an average of 
$14,000 less than their male counterparts, compared to $10,000 
less in 1993.
    Now, what is happening here, and what can we do about it? 
There are clearly areas of discrimination, discouragement, 
steering, harassment that have been documented that are 
violations of Title IX. There is a recent study that found that 
71 percent of male teachers believe that male students are more 
interested in the mechanics of computer technology, and are 
more likely to attribute boys' success in technology to talent, 
while dismissing girls' success as due to luck or diligence.
    There has been deficient career counseling in secondary 
schools. We have seen post secondary programs with female 
students transferring out of these areas more often than their 
male counterparts. We have seen the problem of low faculty 
expectations and gender bias. The National Women's Law Center 
released a study in June of this year looking at the area of 
vocational and technical high schools across the country, where 
we found shocking statistics showing virtually no progress over 
the last 30 years, with AP courses in calculus, statistics, 
biology, chemistry, physics, or computer science far less 
likely to be even available to young girls that are in 
vocational and technical high schools in traditionally female 
programs than in traditionally male programs.
    Those young girls often are tracked with choices they make 
in the eighth grade, and then they find themselves without the 
kinds of core math and science courses that allow their talents 
to shine through, so that by the time they get to college, or, 
let alone to post secondary programs of different sorts, many 
of these options are behind them. So, we would urge that while 
a focus certainly be kept on the college and post college 
level, the tracking that happens far below those levels for 
younger girls not be ignored.
    I want to also quickly point for a minute to some of the 
studies and some of the disturbing arguments that I must say I 
hear more and more over the last couple of years that really 
resonate with what I remember hearing when Title IX was passed 
in 1972, and that is that women are either not as good in these 
areas because of biology, or that they are not interested in 
these areas and they like going into the kind of areas where 
there is less pay, less opportunity for promotion, and less 
career advancement. The argument is that these are the women's 
choices.
    We hear that more and more, of course, in the area of 
athletics. The Title IX commission that has been established 
has been told that the fact that only 40 percent of athletes 
are women is a reflection of women's interests, that they are 
really not interested in having a 50-50 chance to play, and 
that women are unsuited to competitive athletics. These are 
like the arguments that women are not suited to the kinds of 
math or science careers that are the subject of this hearing.
    Finally, I want to look at the issue of Title IX 
enforcement, and there has been a discussion about attitudes, 
for sure, that are needed to be changed, but attitudes often 
get changed when we have laws and enforcement of those laws 
that set out our principles of equal opportunity. We do not 
wait for attitudes to change, and fortunately we did not wait 
for attitudes to change when we passed the landmark civil 
rights laws, and whether people had racist attitudes or not the 
law went in, the enforcement went forward, and people learned 
because of the enforcement about the talents and the skills of 
all of our population.
    I have to admit that I did grow up at a time pre Title IX. 
I did go through college and law school before Title IX was 
passed. I was sitting here trying to think about whether I 
would publicly say it, but I will. In any event, I do know from 
first-hand personal experience of a time when I was told that 
going to law school was not something that a woman would be 
interested in, that it was inconsistent with having a family, 
that it was not possible to be a good lawyer because women were 
not as aggressive and, as a matter of fact, that it would be 
something that I would not like doing anyway.
    It was for a variety of reasons that I was able to overcome 
those stereotypes and, as Senator Bayh pointed out, there are 
many, many young women who have followed into law schools now, 
and nobody would suggest women do not make good lawyers today, 
but those attitudes die hard. The challenges and attacks on 
Title IX are serious. They will affect all of Title IX, and I 
want to go through what I think are absolutely critical areas 
for this Committee.
    Senator Wyden. If you could just highlight your additional 
concerns, we will make them a part of the record in their 
entirety.
    Ms. Greenberger. I would like to just talk about some of my 
concerns with the Office for Civil Rights' enforcement that is 
happening right now, and what I hope this Committee will do in 
addition to the very important things, Senator Wyden, that you 
had outlined in the beginning of the hearing. All of those 
actions I think are absolutely essential and are very, very 
important for this Committee to pursue.
    I was concerned to hear the statistics from 1994 of 
compliance reviews being done in the area of math and science. 
I would like to know what statistics there are with respect to 
compliance reviews being done in 2002, not 1994. It is our 
understanding that there are very few of those compliance 
reviews being initiated by the Office for Civil Rights right 
now.
    It is also my understanding from testimony from the head of 
the Office for Civil Rights that sexual harassment guidelines 
and policies that are in place may be under review, and that 
has been a very important barrier that has to be broken down in 
opening up nontraditional areas such as math and science for 
women. If it is true that those sexual harassment policies are 
under review, just as the Title IX athletics policies are, and 
other policies are, then we are really turning the clock back, 
and I think serious oversight with respect to that is 
essential.
    When the Center issued its report with respect to 
vocational education, it filed 12 petitions for compliance 
reviews in each region of the country with the Office for Civil 
Rights. We do not know to this day whether even one compliance 
review in this area per region will be conducted or is planned.
    Further, the National Science Foundation, NASA, the 
Department of Energy, and the National Institutes of Health, 
who give major grants and conduct their own programs as well as 
fund others, have Title IX responsibilities. One of the things 
that President Clinton did in acknowledgement of the 25th 
anniversary of Title IX was to ensure that all of the 
departments and agencies that have Title IX responsibility, 
actually issue regulations under Title IX.
    Now that they have, or not every single one has, almost all 
have, we are very concerned that they take those regulations 
and actually enforce them, so we would want and hope that you 
would look at what the National Science Foundation, NASA, and 
other parts of Government agencies that are subject to this 
Committee's jurisdiction, are doing with respect to their own 
Title IX regulations.
    What are they doing with respect to their own programs, not 
just doing the studies, but what kind of compliance reviews 
have they scheduled? Are they getting complaints? Have they 
informed anybody in the public that they could file complaints 
with them, that they do not have to look only at colleges and 
universities, but major research labs in private industry, 
nonprofit research labs are subject to Title IX as well, and 
also what kind of coordination with the Office for Civil Rights 
at the Department of Education is going on.
    We would suggest as well some serious look at a number of 
bills proposed with respect to funding to help train teachers 
and improve their skills with respect to math and science and 
technology, to include skills and teaching all of students, 
both male and female students, and also programs to encourage 
young girls to look more broadly with respect to their career 
horizons, and finally, GAO studies to look at what kind of 
compliance activities are happening in the Government, what 
kinds of strategies are useful. The kind of GAO research could 
be very, very instrumental.
    And my final sentence comes from Representative Patsy Mink. 
I think she is on all of our minds. She was actually, during 
the brief period when she was not in public service, on the 
board of the National Women's Law Center, and so her loss is a 
personal one to us as well as, obviously, a great loss to women 
and men across the country.
    She said in 1971, ``discrimination against women in 
education is one of the most damaging forms of prejudice in our 
Nation, for it derives a high proportion of our people an 
opportunity for equal employment, and equal participation in 
national leadership.'' We know, you know how true those words 
are, and we are very grateful for your leadership in pursuing 
Title IX.
    Thank you.
    [The prepared statement of Ms. Greenberger follows:]

   Prepared Statement of Marcia Greenberger, Co-President, National 
                           Women's Law Center

    I am Marcia Greenberger, Co-President of the National Women's Law 
Center. Thank you for the invitation to appear before you today to 
discuss the applicability of Title IX of the Education Amendments of 
1972 (Title IX) to opening up opportunities for women interested in 
pursuing degrees and careers in mathematics, engineering and the hard 
sciences. We are especially pleased to have this opportunity because 
this year is the law's 30th anniversary. While much progress has been 
made in the last three decades, much remains to be done to ensure that 
women have equal access and opportunities in all areas of education.
    The Center is a non-profit organization that has worked since 1972 
to advance and protect the legal rights of women and girls across the 
country. The Center focuses on major policy areas of importance to 
women and their families, including education, employment, health and 
reproductive rights, and economic security--with particular attention 
paid to the concerns of low-income women. Founded in the year that 
Title IX was passed, the Center has devoted much of its resources to 
ensuring that the promise of Title IX becomes a reality in all aspects 
of education.
    Title IX was enacted in 1972 as a broad proscription against 
discrimination in any federally funded education program or activity. 
It states simply:

        No person in the United States shall, on the basis of sex, be 
        excluded from participation in, be denied the benefits of or be 
        subjected to discrimination under any education program or 
        activity receiving Federal financial assistance.\1\

    \1\ Title IX of the Education Amendments of 1972, 20 U.S.C. 
Sec. 1681 et seq.
---------------------------------------------------------------------------
    Title IX applies to most elementary and secondary schools and 
colleges and universities. It also applies to programs and activities 
affiliated with schools that receive federal funds. It was intended to 
ensure equal opportunity for women and girls in all aspects of 
education--from access to higher education, to equal opportunities and 
fair treatment in elementary and secondary classrooms, to equal 
opportunities in athletics programs. In passing Title IX, Congress 
recognized that it is through education that women have the means to a 
better economic future for themselves and their families. Congress' 
vision has borne fruit: thirty years after enactment of the law, we 
have more women doctors and lawyers, as well as women athletes winning 
medals and trophies--all of whom help defy gender stereotypes about the 
interests and abilities of women and girls.

I. Women and Girls are Underrepresented in Math, Science, Engineering 
        and Technology.
    Despite this progress, women remain underrepresented in the 
traditionally male fields of math, science and engineering. Gender 
disparities in math and science start small and grow as students 
advance in school, with boys outperforming girls on standardized tests 
and participating in math and science classes at higher rates in high 
schools, and men majoring in math and science at higher rates than 
women at the post-secondary level.\2\ Similarly, at both the high 
school and post-secondary levels, female students are less likely than 
their male counterparts to receive training in computers and technology 
beyond the traditionally female areas of word processing or data 
entry.\3\ This underrepresentation is particularly problematic at this 
time in our history, when proficiency in science, math and the 
information sciences is critical to jobs in a technological society.
---------------------------------------------------------------------------
    \2\National Coalition for Women and Girls in Education, Title IX at 
30: Report Card on Gender Equity, 37 (June 2002).
    \3\ Id. at 52.
---------------------------------------------------------------------------
    While women have made remarkable progress in pursuing college 
degrees, they are still underrepresented in the areas of math, science 
and engineering--underrepresentation that grows larger at the master's 
and doctorate degree levels. In fact, the only science in which women 
receive bachelors' degrees in rough proportion to their presence in the 
student body is the biological /life sciences, where women receive 58 
percent of bachelor's degrees and 55 percent of master's degrees. But 
even in this field, women lose their majority to men at the doctorate 
level, with women receiving only 44 percent of doctorate degrees.
    And in other fields, the news about women's participation is worse. 
For example:

  <bullet>  In mathematics and physical sciences women are working 
        towards parity with men at the bachelor level where women 
        receive 47 percent of bachelor's degrees in mathematics and 40 
        percent of bachelor's degrees in physical sciences. However, 
        women are awarded only 25 percent of doctorate degrees in each 
        of these areas.

  <bullet>  In computer and information sciences, there is actually a 
        downward trend. The number of women receiving bachelor's 
        degrees in computer and information sciences reached a high of 
        37 percent in 1984, but dropped to 28 percent in 1999-2000.

  <bullet>  The most disturbing disparity lies in engineering, where 
        women receive only 18 percent of bachelor's degrees, 21 percent 
        of master's degrees, and 15 percent of doctorate degrees. (See 
        attached charts.)

    These disparities in the student body are mirrored by similar 
gender disparities in the employment of female professors in math, 
science and engineering. For example, in engineering, women are only 
8.9 percent of tenured or tenure-track faculty, and only 4.4 percent of 
full professors.\4\ They are only 25 percent of the full-time 
instructional faculty in natural sciences.\5\ (See attached chart.)
---------------------------------------------------------------------------
    \4\ Margaret Mannix, Facing the Problem, Prism Journal of 
Engineering, Vol. 12, No. 2 (October 2002).
    \5\ U.S. Department of Education, National Center for Education 
Statistics, Digest of Education Statistics (2001), at http://
nces.ed.gov/pubs2002/digest2001/tables/dt.235.asp.
---------------------------------------------------------------------------
    As Representative Patsy Mink stated in 1971, ``discrimination 
against women in higher education is one of the most damaging forms of 
prejudice in our Nation for it deprives a high proportion of our people 
of the opportunity for equal employment and equal participation in 
national leadership.'' \6\
---------------------------------------------------------------------------
    \6\ 117 Cong. Rec. 2658 (1971).
---------------------------------------------------------------------------
    Moreover, while girls the gender gap is narrowing in mathematics 
and science at the high school level, girls continue to lag behind 
their male counterparts in several key areas. For example:

  <bullet>  Girls score 35 points below boys on the math portion of the 
        SAT.\7\

    \7\ The College Board, 2001 Profile of College Bound Seniors.
---------------------------------------------------------------------------
  <bullet>  Across all racial and ethnic groups, males are more likely 
        than females to attain high scores on the AP biology 
        examination and the AP calculus examination.\8\
---------------------------------------------------------------------------
    \8\ Educational Testing Service, Differences in the Gender Gap: 
Comparisons Across Racial/Ethnic Groups in Education and Work, pp. 38-
39 (2001).

  <bullet>  In 1997, girls comprised only 37 percent of students 
        enrolled in Advanced Placement (AP) computer science classes 
        across the nation, and in twelve states comprised less than 20 
        percent of the students.\9\
---------------------------------------------------------------------------
    \9\ U.S. Department of Education, Office for Civil Rights, 1997 
Elementary and Secondary School Civil Rights Compliance Report, 
National and State Projections (December 1999).

  <bullet>  Girls are less likely than boys to take math courses beyond 
        algebra II, and boys far outnumber girls in physics and 
        computer classes.\10\
---------------------------------------------------------------------------
    \10\ American Association of University Women, Gender Gaps: Where 
Schools Still Fail Our Children, 13-14 (1998).
---------------------------------------------------------------------------
II. This Underrepresentation has Significant Consequences for Women.
    The gender disparities in math, science, engineering and technology 
have a deep impact on the earning power and career prospects of women. 
For example:

  <bullet>  Women employed in science are most likely to work in 
        natural sciences, where they comprise 35 percent of the 
        workforce. The annual mean income for natural sciences 
        occupations is $47,790. This is significantly less than the 
        annual mean income for computer and math occupations--$58,050--
        or for engineering (including architecture) occupations, 
        $54,060. Women comprise only 30 percent of the computer and 
        math workforce and a meager 11 percent of the engineering 
        workforce.\11\
---------------------------------------------------------------------------
    \11\ U.S. Department of Labor, Bureau of Labor Statistics, at 
http://stats.bls.gov/oes/2000/oes--15Co.htm.

  <bullet>  Even where women and men have attained the same degree 
        level, salary differentials persist. Women with a bachelor's 
        degree in an area of science or engineering, earn 35 percent 
        less than similarly situated men, and those with a doctorate 
        degree earn 26 percent less than their male peers.\12\
---------------------------------------------------------------------------
    \12\ Association of Women in Science, Salary Differentials 
controlling for individual characteristics: 1999, at http://
www.awis.org/statistics/statistics.html

  <bullet>  The gap between the median annual salaries of men and women 
        in science and engineering occupations has increased over time; 
        in 1999, women earned an average of $14,000 less than their 
        male counterparts, compared to $10,000 less in 1993.\13\ (See 
        attached chart.)
---------------------------------------------------------------------------
    \13\ American Women in Science, Median Annual Salaries of Men and 
Women in Science and Engineering Occupations, at http://awis.org/
statistics/statistics.html.

    Indeed, a 1997 report issued by the U.S. Department of Education 
noted several trends that inhibit educational and career opportunities 
for women, including women's lower number of degrees in computer 
science, engineering, physical science, and math compared with men, and 
the underrepresentation of women in jobs in scientific fields.\14\
---------------------------------------------------------------------------
    \14\ U.S. Department of Education, Title IX: 25 Years of Progress, 
15-16 (June 1997).
---------------------------------------------------------------------------
III. Women and Girls in Math, Science, Engineering and Technology Face 
        Persistent Barriers.
    This pattern of underrepresentation at both the secondary and post-
secondary levels of education is directly linked to the continuing 
barriers that female students face in these programs. For example, a 
recent study found that 71 percent of male teachers believed that male 
students were more interested in the mechanics of computer technology, 
and were more likely to attribute boys' success in technology to talent 
while dismissing girls' success as due to luck or diligence.\15\ And 
deficient career counseling in secondary schools has been found to 
reduce women's entry into science and engineering at the university 
level.\16\ Additionally, some research has demonstrated that in post-
secondary programs, female students transfer out of science, 
engineering and technology-related majors more often than their male 
counterparts, in part due to experiences of gender bias and low faculty 
expectations.\17\
---------------------------------------------------------------------------
    \15\ American Association of University Women Educational 
Foundation, Tech-Savvy: Educating Girls in the New Computer Age, at 24 
(2000).
    \16\ Carolyn B. Ramsey, Subtracting Sexism from the Classroom: Law 
and Policy in the Debate Over All-Female Math and Science Classes in 
Public Schools, 8 Tes. J. Women and L.1 (1998).
    \17\ Congressional Commission on the Advancement of Women and 
Minorities in Science, Engineering and Technology Development, Land of 
Plenty: Diversity as America's Competitive Edge in Science, Engineering 
and Technology, at 31 (September 2000).
---------------------------------------------------------------------------
    Further, many of our young women do not enjoy equal access to math, 
science or technology-related opportunities because of decisions made 
by their education systems about the placement of such opportunities. 
For example, an investigation conducted by the National Women's Law 
Center into educational opportunities for female students in New York 
City's vocational and technical high schools found that none of the 
four predominantly female vocational schools offer any AP courses in 
Calculus, Statistics, Biology, Chemistry, Physics, or Computer Science, 
although such courses are provided at the predominantly male vocational 
schools. According to our calculations, approximately 67 percent of 
male vocational students, but only 35 percent of female vocational 
students, attend a school that offers at least one math or science AP 
course. Similarly, the New York City Board of Education has implemented 
Cisco Networking Academies, which lead to industry certification in 
computer networking, at some of the vocational high schools, but has 
not placed this program in any of the predominantly female schools.\18\
---------------------------------------------------------------------------
    \18\ See National Women's Law Center, Letter to Chancellor Harold 
O. Levy, August 15, 2002, at http://www.nwlc.org/pdf/LevyLetter.pdf.
---------------------------------------------------------------------------
    Thus, a 2000 report of the United States Commission on Civil Rights 
found that ``[t]hrough lack of counseling; stereotypical socialization; 
discouragement; less aggressive inclusion of parents in designing 
programs; gender-biased teaching styles, resources, and testing; and 
other barriers, girls are steered from math, science, engineering, and 
other technical fields.'' \19\ Similarly, the Congressional Commission 
on the Advancement of Women and Minorities in Science, Engineering and 
Technology Development concluded that same year that ``[a]ctive 
discouragement . . . contribute[s] to girls' lack of interest in 
[science, engineering and technology] careers.'' \20\
---------------------------------------------------------------------------
    \19\ United States Commission on Civil Rights, Equal Educational 
Opportunities and Nondiscrimination for Girls in Advanced Mathematics, 
Science, and Technology Education: Federal Enforcement of Title IX, 7 
(July 2000).
    \20\ Land of Plenty: Diversity as America's Competitive Edge in 
Science, Engineering and Technology at 2.
---------------------------------------------------------------------------
    Women faculty members also face barriers at their institutions. A 
recent study on the status of female professors in science at 
Massachusetts Institute of Technology (MIT) drew national attention 
when the university publicly acknowledged discrimination against women 
faculty. In 1994, tenured women faculty in the School of Science at MIT 
formed a committee to investigate whether their individual experiences 
of veiled discrimination represented a broader framework of 
inequality.\21\ The committee's report relied upon and analyzed data 
and interviews conducted with women faculty and department heads.\22\
---------------------------------------------------------------------------
    \21\ A Study on the Status of Women Faculty in Science at MIT, MIT 
Faculty Newsletter, Vol. XI, No. 4, March 1999, at http://web.mit.edu/
fnl/women/women.html.
    \22\ Id. at 4.
---------------------------------------------------------------------------
    The report found that tenured women faced ``patterns of 
difference,'' evidenced by consistently lower salaries than their male 
peers, unequal access to resources and persistent exclusion from any 
substantive power at MIT.\23\ The report also revealed a correlation 
between these ``patterns of difference'' and the tenured women's 
consistent reports of feeling excluded, disempowered, ``invisible'' and 
``marginalized'' within their departments as their careers 
progressed.\24\ According to the report, ``as of 1999, there ha[d] 
never been a woman department head, associate head, or center director 
in the School of Science in the history of MIT.'' \25\
---------------------------------------------------------------------------
    \23\ Id. at 7.
    \24\ Id. at 7-8.
    \25\ Id. at 12.
---------------------------------------------------------------------------
    Unfortunately, despite evidence of the very real barriers that 
women and girls continue to face in these fields, gender stereotyped 
arguments about the abilities and interest of women and girls persist. 
Allegations continue to be made today, for example, that males 
outnumber females in doctoral degrees in fields such as physics and 
engineering because their spatial and mechanical aptitudes are superior 
to those of women, and that sex hormones are the cause of these 
differences between males and females.\26\ These types of arguments 
have also been made repeatedly in an effort to deny women equal 
athletics opportunities, where critics of Title IX have asserted that 
women are less interested in sports than men. However, as Congress and 
the courts have consistently recognized, Title IX was enacted in order 
to remedy discrimination that results from stereotyped notions of 
women's interests and abilities and the law must be vigorously enforced 
to eradicate those discriminatory assumptions.
---------------------------------------------------------------------------
    \26\ Patricia Hausman, Independent Women's Forum, Plenty of 
Nonsense, How the Land of Plenty Report Denies Female Scientific 
Achievement, 14-15 (November 2000).
---------------------------------------------------------------------------
IV. Title IX Enforcement is Critical to Eliminating Barriers.
    As this information demonstrates, vigorous enforcement of Title IX 
is necessary to ensure that discrimination on the basis of sex is 
stamped out. The Title IX regulations, promulgated in 1975, require 
federally funded education programs to take a variety of steps to 
prevent and address sex discrimination.\27\ In particular, education 
programs may not discriminate in recruiting, counseling, admissions or 
treatment of students. For example:
---------------------------------------------------------------------------
    \27\ 34 C.F.R. Part 106.

  <bullet>  Programs must ensure that counseling is not discriminatory 
        and does not steer female students away from non-traditional 
---------------------------------------------------------------------------
        areas, such as math and science.

  <bullet>  Programs must designate an employee to ensure Title IX 
        compliance and to investigate complaints of sex discrimination.

  <bullet>  Programs must implement and disseminate a written policy 
        prohibiting sex discrimination, with a process for filing 
        grievances.

    Importantly, the Title IX regulations require that if a program 
finds that a particular class is disproportionately male or female, 
that program must make sure that this is not the result of sex-biased 
counseling or the use of discriminatory counseling or appraisal 
materials.\28\ Thus, math, science, engineering and technology-related 
programs have an affirmative obligation to review their own practices 
and remedy discriminatory practices that lead to underrepresentation of 
women in these areas.
---------------------------------------------------------------------------
    \28\ 34 C.F.R. 106.36 (c).
---------------------------------------------------------------------------
    The Department of Education's Office for Civil Rights (OCR) is 
recognized as the primary enforcement agency under Title IX. However, 
OCR has a mixed record on Title IX compliance and enforcement 
activities relating to women and girls in math and science education. 
For example, a recent review of OCR's activities indicated that few of 
OCR's Title IX cases have evaluated female students' access to and 
participation in science and math.\29\ Moreover, it is unclear whether 
OCR is providing adequate technical assistance in this area. In April 
1996, OCR released a ``promising practices'' document regarding access 
for women and minorities to math and science programs, to help school 
districts with an underrepresentation problem devise ways to ensure 
equal educational opportunity.\30\ It is unclear whether OCR continues 
to make this document available to education programs today as it 
conducts technical assistance, or whether the underrepresentation of 
women and girls in math, science, engineering or technology programs is 
a priority issue for the office.
---------------------------------------------------------------------------
    \29\ Equal Educational Opportunities and Nondiscrimination for 
Girls in Advanced Mathematics, Science, and Technology Education: 
Federal Enforcement of Title IX , at 65.
    \30\ U.S. Department of Education, Office for Civil Rights, 
Promising Programs and Practices: Access for Women and Minorities to 
Mathematics and Science Programs and Gifted and Talented Education 
Programs, April 1996.
---------------------------------------------------------------------------
    With its enforcement powers, OCR can effect great changes, but this 
requires resources and a greater commitment to enforce Title IX in all 
areas of education. Compliance reviews and other enforcement measures 
are needed to ensure that schools and programs are meeting their 
obligations under the law. In fact, OCR could be asked to undertake 
compliance reviews to determine the causes for women's lower 
participation in math and science, which decreases even more at the 
post-secondary level, and to take action to eliminate all forms of sex 
discrimination. Indeed, in a related area, in June 2002, the Center 
filed 12 Petitions for Compliance Review with each of the regional 
offices of OCR, requesting full investigations of the sex segregation 
in high school vocational and technical programs in specific 
states.\31\ It is our hope that OCR will conduct full investigations 
and remedy any discrimination that has resulted in barriers to full 
educational opportunity for young women in these programs. Similar 
requests for compliance reviews of math, science, engineering and 
technology programs could generate beneficial results.
---------------------------------------------------------------------------
    \31\ See National Women's Law Center, Petitions for Compliance 
Reviews of High School Vocational and Technical Programs by the United 
States Department of Education, Office of Civil Rights, Regional 
Offices, at http://www.nwlc.org/details.cfm?id=1138&section=education.
---------------------------------------------------------------------------
    In addition to proactive compliance reviews conducted by OCR, any 
student or interested group may file a Title IX complaint with the 
federal government to challenge discrimination in math, science and 
engineering programs. Individuals whose rights under Title IX have been 
violated may also be able to bring a federal lawsuit against the 
education program or institution.

Conclusion
    While there has been progress made over the last 30 years under 
Title IX, many battles still must be fought to eradicate sex 
discrimination in education and enable women and girls to realize their 
full potential. Women and girls continue to face unacceptable barriers 
in the non-traditional fields of math, science, engineering and 
technology. These barriers must be eliminated, and strong enforcement 
of Title IX is necessary to open up the door to equal educational 
opportunity. After 30 years of this important law, we still fall short 
of the educational landscape that the late Representative Edith Green 
and former Senator Birch Bayh envisioned when they sponsored Title IX--
namely, complete elimination of the ``corrosive and unjustified 
discrimination against women'' in education. As long as math, science, 
engineering and technology remain hostile fields for women, we will not 
have realized Title IX's promise. We must recommit ourselves today to 
making the letter and the spirit of the Title IX law a reality across 
all areas of education.

        Thank you very much.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Senator Wyden. Well said. We will have some questions in a 
moment.
    Dr. Richmond, welcome.

STATEMENT OF DR. GERALDINE L. RICHMOND, RICHARD M. AND PATRICIA 
               H. NOYES DISTINGUISHED PROFESSOR, 
         DEPARTMENT OF CHEMISTRY, UNIVERSITY OF OREGON

    Dr. Richmond. Thank you, Senator Wyden, and your staff 
members, for inviting me to attend this important hearing, and 
I am particularly proud, Senator Wyden, that my Senator has 
taken on this issue. It is a treat. I am a scientist, I am a 
researcher, and I am an educator at the University of Oregon. I 
have been doing chemical physics for the last 23 years as a 
faculty member. I have graduated numerous Ph.D. students who 
work in companies, Government labs, colleges and universities 
around this country, and I have taught introductory chemistry 
to several thousand undergraduates. Although you may think that 
is a little frightening, it is actually fun.
    My research program involving laser spectroscopy and optics 
is supported by the National Science Foundation, the Department 
of Energy, and the Office of Naval Research. I have published 
volumes of research papers and served on more national and 
State-wide Committees than I care to count to oversee the 
health and vitality of the science enterprise in this country.
    I am passionate about my science, my students, and my 
desire to see more women have the opportunity of a rewarding 
career that I have had. In 1997, I founded a group called COACh 
(Committee on the Advancement of Women Chemists)--how 
appropriate for this group--which is comprised of the most 
senior women academic chemists in this country. We are funded 
by the National Science Foundation, the Department of Energy, 
and the National Institutes of Health, and we seek solutions to 
the problems that are being addressed here.
    As we seek a way to get more women into science careers, we 
must understand the scientific enterprise. Our country 
continues to be a world leader in science and technology 
because of the excellent training and exceptional 
accomplishments of our scientists. Those that scale the career 
ladder to obtain advanced degrees in science and engineering 
are the intellectual engines of this enterprise. The peer 
review process is a tool we use to measure scientific quality 
in this basic research and identify and reward the best 
science.
    Unlike sports, where women's sports and men's sports are 
often separated, we do not separate our science by gender, nor 
do we want to. Our bodies are different, but our minds are 
comparable and strong, intellectually equal. The ladder one 
must climb to be a professor in a research university or 
laboratory is daunting to any incoming student. It takes 4 to 5 
years to get a B.S. in science, 5 to 7 more to get a Ph.D., 2 
to 4 additional years as a post-doctoral associate. All are 
usually done at different schools in different cities across 
the country.
    The rigors of graduate school often demand a 60 to 70 hour 
work week, with an average stipend of 18 to 20 thousand 
dollars. This equates to $5 to $6 an hour. This low stipend 
makes it very difficult to pay off undergraduate student loans, 
buy a house, save money, or have children. Those fortunate 
enough to be hired in a faculty position get to then spend the 
next 5 or 6 more years working even harder in order to get job 
security, or what we call tenure. For those counting, now you 
are in your mid to late thirties.
    Further success in your endeavors leads you to promotion 
from associate professor to full professor, and if you are 
eventually elected to the National Academy of Sciences and 
Engineering, our hall of fame, you have reached the top rungs 
of the ladder.
    The attrition of female scientists from this ladder is 
well-documented. As I travel the country, the concern I most 
frequently hear from female undergraduates and graduate 
students is the uncertainty about being able to handle a family 
and an academic science career, and how and when to fit 
children into this lengthy educational process, concerns of 
availability of good and flexible child care, financial 
stability, lack of maternity policies in most academic 
departments, particularly at the graduate student level. Others 
cite the lack of good role models, gender biases in the 
environment, and isolation, all of which contribute to our 
diminished ability to populate our academic institution with 
female faculty and consequently female students. It is no 
wonder so few women even think about applying for academic 
positions.
    For those women who do choose to become professors, many 
factors slow their progress. These factors have a very damaging 
cumulative effect on their careers, outlined in Virginia 
Valian's book, Why So Slow? They arise from biases that 
originate in the culture of our scientific community and 
society. COACh has collected many stories of these factors in 
our workshops with women faculty from around the country. They 
make you cry, they make you mad, they make you wonder if it 
will ever get any better.
    Gender bias in the peer review and teaching evaluation 
process, unfair tenure processes, heavy teaching and service 
loads, lower salary, less recognition for equal work, and 
resentment by colleagues for awards and recognition received 
that are only available for women, are all documented negative 
factors that accumulate over time, and lessen her ability to 
make it to the top rungs of the ladder and be an influential 
player in the education and research enterprise. Those familiar 
with accumulated interests know that even a small, 1 percent 
lower investment per year leads to an overall lower investment 
value of 25 percent over a 30-year period.
    For women to flood the higher ranks of science as they have 
in sports, it is critical that we recognize the inherent 
differences in these two very different career paths as we seek 
to devise a solution. If Title IX is used as a tool, the key is 
in the implementation. Because of the flexibility that Title IX 
provides, there are good solutions and there are bad solutions, 
and we must seek only what is best for both the scientific 
enterprise and women.
    My academic female colleagues in COACh believe that the 
approach must be targeted at three different levels, the 
individual researchers, the academic institutions, and the 
funding agencies.
    First, every researcher and educator that receives Federal 
funding for scientific research that involves graduate students 
and research associates has the responsibility to assist in 
broadening the participation of women in the scientific 
enterprise. The National Science Foundation is on the forefront 
of trying to make this change in the culture, with the October 
1 mandate that all research proposals will now be judged on 
both scientific excellence and broader impact, what we call 
criteria 2, which includes the recruitment and retention of 
women in under-represented fields.
    Second, all funding agencies that support research programs 
that involve training, such as research undergraduate students, 
graduate students, and post-doctoral associates, need to take 
appropriate action to assure that women are active players and 
leaders in the current and future scientific and technological 
workforce. This includes NSF, Department of Energy, NASA, NIH, 
and the DOD mission agencies. They all fund graduate students, 
and they need to be reminded that this is important. At a 
minimum, they should be following NSF's model of following 
criteria 2 in the evaluation process.
    And third, educational institutions receiving Federal 
research funding need to demonstrate a commitment and sustained 
progress on increasing the number of female educators and 
participants in the scientific enterprise. The Advance program 
which was alluded to earlier at NSF has brought in lots and 
lots of ideas from institutions across the country. Seventy-two 
proposals were received this week from institutions across the 
country for changes that can happen in different universities. 
Only about eight or nine will be able to be funded. That is 
really unfortunate, but what we need to do is to make sure that 
those ideas get the kind of funding that they deserve in order 
to have these women see the lifeline coming to them.
    It is vital for both the security of our Nation and the 
health of our global economy that this Nation's workforce be 
comprised of the brightest and the best minds in this country. 
I look forward to the day when more women can have the deeply 
rewarding career that I have had in my science, teaching, and 
friendships with other women scientists at the University of 
Oregon and sprinkled around the country.
    Thank you very much for your attention to this issue, 
Senator Wyden.
    [The prepared statement of Dr. Richmond follows:]

    Prepared Statement of Dr. Geraldine L. Richmond, Richard M. and 
  Patricia H. Noyes Distinguished Professor, Department of Chemistry, 
                          University of Oregon

    I wish to express my sincere pleasure in being asked to speak at 
this important hearing on my two favorite topics, science and women in 
science. I come to you as a practicing scientist, researcher and 
educator. I have the best job in the world. Back home in my wonderful 
state of Oregon, and the University of Oregon, I have the privilege to 
spend my days working closely with my research students on experiments 
that employ lasers to understand chemical and biological processes at 
surfaces. In my 23 years as a professor in the field of chemical 
physics I have graduated numerous Ph.D. students who currently occupy 
positions in companies, government laboratories, colleges and 
universities around the country. In order to carry out this state-of-
the-art research program, each year I spend endless hours raising at 
least a half million dollars from the Federal research agencies 
relevant to my work, from agencies such as NSF, DoE and DOD. I have 
published volumes of papers on our results and have served on numerous 
national and statewide committees that oversee the health and vitality 
of the scientific enterprise in this country. Through all of this, a 
passion of mine has been the recruitment and promotion of females in 
scientific careers, from my first faculty appointment at Bryn Mawr 
College to my current role as founder and chair of a national 
organization called COACh, the Committee on the Advancement of Women 
Chemists that is based at the University of Oregon.
    In my parallel role of mother, I have the opportunity to spend part 
of my days hanging around rainy soccer and baseball fields. One of the 
unexpected pleasures of this has been to watch hordes of young girls 
playing team sports, an experience that I never had as a young girl 
since I was pre-Title IX. As I watch these girls learning to be 
aggressive, competitive, goal oriented and team players, I wonder if 
these personality traits will translate later into them being more 
capable of dealing with workplace issues for which many of us were not 
prepared. For the girls who choose to go into male dominated fields of 
science and engineering, will these traits make the daily battles 
easier? Will they have the benefit of female science teachers in their 
college education and graduate school who can serve as role models, 
coaches, confidants and cheerleaders, a benefit that most of us in my 
peer group never had. For those young women entering college today, the 
likelihood is low, particularly if they attend one our top 50 research 
universities. In engineering, they will have to look beyond 12 male 
faculty members to find the female. Physics is worse, chemistry and 
computer science slightly better at around 1:10. Unfortunately, these 
numbers have shown minimal improvement in recent years relative to the 
increase in the number of female undergraduate students in these 
disciplines, Why? The factors are complex, just as the potential 
solutions. Given the challenges that lie ahead in national security, 
technology and the global economy, we can not afford to leave half of 
our population behind. We must recruit, educate and promote a higher 
percentage of our women in technical fields.
    Our country continues to be the world leader in science and 
technology because of the excellent training and exceptional research 
accomplishments of scientists in this country. Those that scale the 
career ladder to obtain advanced degrees in science and engineering are 
the engines of the enterprise. Science breakthroughs generally depend 
upon years of accumulation of data from fundamental or basic research. 
This basic research is largely done at universities, decreasingly at 
government laboratories, with the assistance of graduate students and 
postdoctoral associates. The peer review process is the tool we use to 
measure scientific quality in this basic research, the backbone of our 
research enterprise that is essential to identifying and rewarding the 
best science. Unlike sports where women's sports and men's sports 
programs are often separated, we do not separate our science by gender, 
nor do we want to. Our bodies are different, but our minds are 
comparable and strong, intellectually equal.
    The ladder that one must climb to make contributions to the 
research enterprise is daunting to anyone. The 4-5 years spent to 
obtain a bachelors of science or engineering degree is followed by 5-7 
years of graduate research work leading to masters and Ph.D. degrees. 
Those interested in becoming a professor at a college or university, or 
research leader at a government laboratory require an additional 2-4 
years of postdoctoral experience. All of these levels are usually done 
at different schools in different cities across the country. The ones 
who choose to go into academia enter as assistant professors with 5-6 
more years to establish an independent national reputation that will 
ensure them a tenured position, i.e. secure employment. Receiving 
tenure in those 5-6 years is generally the biggest career challenge. It 
entails developing a research program that includes building a 
laboratory with state-of-the-art research instrumentation, obtaining 
research funds from peer reviewed proposals sent to numerous funding 
agencies, recruiting and training as many graduate students and 
postdoctoral associates as you can afford with the money you raise, 
conducting the experiments with the knowledge that only a fraction of 
your ideas will produce publishable results, publishing the results in 
peer reviewed journals, hoping that your discoveries will make a 
significant contribution to your field, giving talks all around the 
country to get your work known, and in the end, having your final 
research portfolio judged by experts from around the world who 
collectively believe that you deserve tenure. Your teaching 
accomplishments have a varying influence on the final decision 
depending on your university. Once you receive tenure the next 5-7 
years are spent trying to advance from associate professor to full 
professor rank. Advances beyond this point make you increasingly 
eligible to win major awards or be elected to the prestigious National 
Academy of Sciences and Engineering--our Hall of Fame which is open to 
both men and women.
    For an 18 to 22 year old, the climb up the ladder appears to be 
filled with uncertainty, professionally, financially and personally. 
The rigors of graduate school often demand a 60-70 hour work week. With 
an average stipend of $18-20K, this equates to roughly $5-6 per hour. 
This low stipend leaves little if any ability to pay off undergraduate 
student loans, buy a house, save money, afford children or associated 
childcare. For females, each rung that one climbs on the ladder brings 
additional, gender-based, challenges. For many departments, there are 
few if any female faculty to serve as role models, advisors or mentors. 
One recurring concern that I hear from female undergraduate and 
graduate students around the country who are interested in an advanced 
degree or academic career path relates to the possibility to pursue 
this path and still have a family. Academic institutions in general do 
not send a positive message to women about having children. Unlike 
industry and government laboratories, most academic science and 
engineering departments have no policy for pregnancy or maternity leave 
for graduate students. Affordability, availability of good and flexible 
childcare, delaying children until after tenure, low income and long 
work hours, the lack of family friendly graduate policies all 
contribute to women jumping off the academic science ladder and leaving 
science, or choosing a career that does not assist our ability to 
populate our academic institutions with more female faculty members and 
consequently female students.
    For those women who choose to move further up the academic ladder, 
many factors slow their progress relative to their male colleagues. 
These factors have a very damaging cumulative effect on a woman's 
career. \1\ They arise from biases that originate in the culture of our 
scientific community and society. For example, research shows that for 
two identical papers, one version with a female first author and the 
other with a male first author, harsher reviews were obtained for the 
version with the female author. \2\ A Swedish study shows that women 
have to have five times the accomplishments as their male colleagues in 
order to get similar recognition. \2\ Women, for various reasons are 
often saddled with heavier service and teaching loads than their male 
colleagues, providing an additional impediment to their career 
advancement. \1\ Both women and men react negatively to women who take 
a leadership role in a group \3\. \4\ Awards or programs that are given 
exclusively to women to assist in their progress up the ladder are 
largely ignored or often resented in the tenure, promotion and award 
process because these advances are perceived to not have been given the 
rigorous review process of nongender based advances. My women 
colleagues around the country often hear ``she won that award or got 
elected to that position only because she was female''. The message 
that she is not deserving of her accomplishments comes through 
unequivocally, and can be very damaging. This accumulation of 
disadvantage means that, as the years progress, the impact on her 
ability to make the top rungs of the ladder and be an influential 
player in the education and research scene can be substantial. Those 
familiar with accumulated interest know that even a small 1 percent 
lower investment per year leads to an overall lower investment value of 
25 percent over a 30 year period.
---------------------------------------------------------------------------
    \1\ Valian, V. 1998. Why So Slow? Cambridge, MA: MIT Press.
    \2\ Wenneras, C. and Wold, A. 1997. Nepotism and sexism in peer-
review. Nature 387:341-43.
    \3\ Brown, V. and Geis, F. L. 1984. Turning lead into gold: 
Leadership by men and women and the alchemy of social consensus. 
Journal of Personality and Social Psychology 46:811-24.
    \4\ Butler, D. and Geis, F.L. 1990. Nonverbal affect responses to 
males and female leaders: Implications for leadership evaluation. 
Journal of Personality and social Psychology, 58:48-59.
---------------------------------------------------------------------------
    The bottom line is, in order for women to ``flood'' the higher 
ranks of science as they have in sports it is critical that we 
recognize the inherent differences in these two very different career 
paths as we seek to devise a solution. If Title IX is used as a tool, 
the key is in the implementation. Because of the flexibility that Title 
IX provides, there are good solutions and bad solutions and we must 
seek only what is best for both the scientific enterprise and women. I 
and my academic women colleagues of COACh believe that the approach 
must be targeted at a number of identifiable levels:

        (1) Every researcher and educator that receives federal funding 
        for scientific research that involves graduate students and 
        research associates has the responsibility to assist in 
        broadening the participation of women in the scientific 
        enterprise. The National Science Foundation is on the forefront 
        of trying to make change in the culture with the October 1 
        mandate that all research proposals will now be judged on both 
        scientific excellence and the broader impact (Criteria 2) which 
        includes the recruitment and retention of women in 
        underrepresented fields.

        (2) All funding agencies that support research programs that 
        involve trainees such as research undergraduate students, 
        graduate students and postdoctoral associates need to take 
        appropriate action to assure that women are active players and 
        leaders in the current and future scientific and technological 
        workforce. At a minimum, all need to follow the lead of NSF 
        Criteria 2 in the evaluation process if the research grant 
        involves training of graduate students and postdoctoral 
        associates.

        (3) Educational institutions receiving federal research funding 
        need to demonstrate a commitment and sustained progress in 
        increasing the number of female educators and participants in 
        their scientific enterprise and eliminate barriers that impede 
        the progress of these groups in their institutions. Those 
        involved in hiring, tenure and promotion need to be aware of 
        the documented factors that contribute to the slow rate of 
        progress of women in their academic pursuit and act 
        appropriately.

    It is vital for both the security of our nation and the health of 
our global economy that this nation's workforce be comprised of the 
best and brightest minds that this country can supply. I look forward 
to the day when young women coming up the system enthusiastically 
embrace the joy and satisfaction that comes with a career in science. I 
deeply appreciate this opportunity to share with you some of the joys 
and concerns associated with being a woman in science. Thank you very 
much, Senator Wyden and Senator Allen.

    Senator Wyden. Dr. Richmond, thank you. All of you have 
been very good and very helpful.
    If I might begin with you, Mr. Jones, you came and said you 
were here to deliver good news, to characterize your statement. 
It sure looks like everybody else on the panel does not think 
that the news is so great. Are they wrong, and how would you 
respond to the comments that have been made by the other 
panelists?
    Mr. Jones. Well, I can only address the comments of the 
other panelists as it relates to the work of OCR. I can comment 
on their characterizations of how things have changed more 
broadly, but let me pick up on a few issues.
    Senator Wyden. But you do continue to believe that the news 
is good, in spite of what----
    Mr. Jones. Indeed. The progress is significant and 
substantial. Let me give you another example. The gateway 
course to higher education in mathematics today would be AP 
calculus. Today, 7 percent of boys complete AP calculus. This 
is based on data 2 years ago. 6 percent of girls do, yet when 
we look back to when the earliest statistics were available, 
back in the early eighties, it was twice as many boys as girls 
completing AP calculus. That is progress.
    Yes, 17 percent is not a substantial proportion. It would 
be a minority of women in engineering, but the difference 
between 1 percent and 17 percent, that is substantial progress, 
and frankly, with the exception of the statistic that Ms. 
Greenberger brought up, I did not hear any areas where there 
was what I might call backsliding. The progress may not be at 
the speed to which folks are looking for, but as I am looking 
at it there progress being made, and there continues to be.
    Senator Wyden. Let us talk about some of those specific 
areas, because I do not think your numbers and Ms. 
Greenberger's, if you really look at them in the right context, 
are in disagreement. For example, it looks to me, when you take 
your numbers and Ms. Greenberger's numbers, she is right with 
respect to the reduction in computer science graduates over the 
last several decades, and let me give you an example of why I 
think the numbers square.
    I think that what you have in your testimony on page 4, 
which she has in her testimony on page 2, indicates that the 
number of computer science graduates who are women was about 14 
percent in 1972, then increased very dramatically in the middle 
of the 1980's to about 37 percent, and then the two of you are 
in agreement that by the late 1990's that had fallen to 27 or 
28 percent, so it looks to me like your numbers, if they are 
taken in the right context, confirm the fact that there has 
actually been a reduction in the number of women getting the 
degrees in computer science. Do you find that at all troubling?
    Mr. Jones. Well, again, I have not seen the source. I am 
going to assume, just for her benefit, that the source is the 
same, the Digest of Education Statistics, and it certainly 
indicates that there are fewer women since 1984 who have 
completed the degree. Given that, I would be interested in 
looking at the data more closely through the whole spectrum of 
years, but I will make the overarching comment there are two 
issues at play when we are looking at the number of degree 
completions.
    There are issues that Senator Bayh talked about on the 
Senate floor when the law was being passed back in 1972, issues 
of discrimination, issues of denial of access, issues of 
exclusion from participation. These are issues for which the 
law was passed and the remedies were created.
    There are also issues of self-selection. I do not know 
enough about the sociology of those in the computer science 
field, or the nature of broader industry discrimination, 
whether it exists or does not exist. What I can speak to are 
the areas I talked about, and frankly I wish I had the Diary of 
Ed Statistics with me.
    But I look at statistics like algebra. In 2000 there were, 
I believe it was 64 percent of women completing Algebra II, and 
the figure for men is in the high fifties, and I may be off a 
little there, but it is actually more women than men completing 
that, the gateway to higher math. These, taken in the 
aggregate, I still see as outweighing, again, that being the 
sole statistic I have seen, and I would still see it as one, 
depending upon the timeframe, that represents progress since 
the passage of Title IX.
    Senator Wyden. Dr. Brown.
    Dr. Brown. If I could say something about computer science, 
because I think it is very good that this example came out, and 
I think it sheds light on some of the issues that we are 
talking about here today.
    Computer science initially did attract the interest of 
numbers of girls, as this was a new field, very exciting new 
field, with the technology and development of computers, and 
something that interested girls and boys alike, so early on 
educational programs saw a good percentage of girls.
    I believe what happened then, when you see the attrition of 
women from this field in larger numbers than men so that the 
percentage is lower, and this is a well-known fact that you can 
gather more statistics on, you see that there really is 
something wrong with the environment.
    I mean, here is a situation where girls are attracted, they 
enter the programs, and programs that have addressed improving 
their educational methods in a way that engages male and female 
students better and creates a better environment for girls do 
see less attrition of girls out of those programs, so it is a 
very good example. These are very real statistics, and it shows 
fundamentally the problem with the environment in those fields.
    Ms. Greenberger. I wonder if I could just pick up one quick 
point, too, because as an official with the Office of Civil 
Rights, the whole point is to determine if there is 
discrimination going on. That is the job of the Office for 
Civil Rights, and when the statistics are as skewed as they 
are, let alone when we are actually looking and seeing some 
decreases in areas, but when we are still talking about 17 
percent we can argue about 1 percent to 17 percent, is the 
glass three-quarters empty or not, or a quarter full, to round 
up a bit, but that still means that the Office for Civil Rights 
should be trying to figure out whether there are problems of 
discrimination, and not just looking at statistics and assuming 
because there has been some progress the news is good.
    That is why it is so important to be doing compliance 
reviews. That is the job of the Office for Civil Rights, and 
that kind of discrimination means sexual harassment, and by 
sexual harassment we also mean the kind of harassment--this is 
what the Title IX law says--that girls do not belong in this 
class, girls are not as good in this class. Those kinds of 
statements are actual violations of Title IX. Biased counseling 
is a violation of Title IX.
    That is the job of the Office for Civil Rights to answer 
the very question that was posed. When an official says, I do 
not know if there is discrimination or not, that is the job of 
this very official to find out.
    Mr. Jones. Senator Wyden, would you like me to respond to 
that?
    Senator Wyden. Sure. At some point I will ask some 
questions, rather than everyone asking each other questions. 
No, feel free.
    Mr. Jones. Senator, there are thousands of Federal funds 
recipients in this country. There are hundreds of thousands of 
students. I am not going to tell you today that sexual 
harassment does not go on, that there is not discrimination. 
Our office received, 6,000, over 6,000 complaints a year on all 
six of the statutes we enforce. We take action in many, many of 
those. I can tell you that is discrimination. I would not be in 
the position I am if I was not interested in enforcing those 
laws, but as to the issue of compliance reviews, that is 
something distinct, and the question is, how should the office 
go about it?
    Telling are the cases we talked about. Under the Clinton 
administration in 1994, 15 compliance reviews were launched. 
The majority of those, there was a finding of no discrimination 
on the basis of sex in those math and science programs, the 
majority of them.
    Now, I cannot comment on the following 6 years of the 
previous administration, and up until April of this year the 
Senate was conducting its advice and consent function for my 
boss, Assistant Secretary Reynolds, and since he came in in 
April--his team was completed in July--we started with the 
fiscal year practice of identifying where we are going to 
allocate resources for compliance reviews.
    That process is occurring as we speak, and our career 
officials from each of the 12 offices are recommending where 
they believe in their regions compliance reviews are important. 
We are going to be pulling that together over the coming 
months, which is the very standard practice of the Office for 
Civil Rights.
    Senator Bayh. Mr. Chairman, let me make just a couple of 
observations, and I consider the Office of Civil Rights an ally 
to rooting out this discrimination, but I think I would urge 
you to, as we talk about, two or three of us, the goal of young 
women, that girls set for themselves, all the offices in our 
administrative bureaucracies, I would think that the Office of 
Civil Rights would be establishing high goals.
    Now, it sounds pretty good to say the majority found no 
discrimination. I do not think you ought to rest on that. I 
would be very stern on those that found discrimination, and I 
am one who believes in persuasion rather than coercion, that 
honey gets more support than vinegar, but some people are not 
going to pay any attention unless there is a consequence.
    That is what happened in athletics. You got results when 
people knew they were going to lose Federal funding, and I 
think as much as I hate to say that, I think that is what 
really needs to be addressed, and the people out in the school 
rooms, the universities, the deans' offices, the presidents' 
offices, the provosts' offices, they need to understand if they 
do not get their own house in order--they are the ones that can 
do it. You cannot do it for them, but you can sure tell whether 
it is done or not. Excuse me if I get a little excited here.
    Ms. Greenberger. Senator Wyden, I know you want to ask a 
question, but I know we have talked about the majority of 
findings of no discrimination. Actually, the way the letters of 
findings work as a routine matter with the Office for Civil 
Rights, is that after an investigation, if a school agrees to 
enter into corrective action and has voluntarily changed 
practices, the resulting letter after a compliance review will 
find no discrimination, because of those voluntary agreements. 
So actually the fact that there was a finding of no 
discrimination does not mean even for those particular schools 
that there have not actually been Title IX problems that were 
surfaced during the investigation.
    Mr. Jones. I would say in a majority of those cases no 
action on the basis of Title IX was required, or included, or 
directed for those institutions. They had to do nothing related 
to Title IX. Now, these were reviews more comprehensive. There 
were title VI issues in some of these cases, but the majority 
of them had those institutions taking no action on the basis of 
any Title IX issue.
    Senator Wyden. Well, we are going to crunch the numbers a 
little more here in the hearing, but here is what it comes down 
to. Mr. Jones, when the number of women participating in sports 
has increased more than 800 percent, I do not think it is good 
enough to say that we cannot do better than 17 percent in the 
engineering area, and the 27 or 28 percent that reflects an 
actual drop off in the number of women in computer sciences, 
and that is what I find so troubling, and let me go to some 
questions about how this process actually goes forward at your 
office.
    My understanding from your answer with respect to 
compliance reviews is that it has been your watch here since 
January of 2001, but as of now there has not been a compliance 
review in the math or science area as of today, is that 
correct? You said you are talking about allocating dollars for 
your priorities. I would just like to know, on your watch, as 
of now, since President Bush took office in January of 2001, 
whether there have been any compliance reviews in math and 
science.
    Mr. Jones. I can say both since January of 2001 and since 
April of 2002, when my boss, Gerry Reynolds, was appointed by 
the President to the position to lead this office, there have 
been no compliance reviews commenced under Title IX.
    It would be my view, and I believe it is the Secretary's 
view, that while there is a candidate for the position 
nominated before the Senate it would be inappropriate to 
foreclose the leadership opportunities of that Assistant 
Secretary by determining compliance reviews that requires 
multiple years of work and starting them during a period. 
Compliance reviews can take 1, 2, 3, 4 years, and to begin a 
course of work of that length when the expectation is there 
will soon be an Assistant Secretary would be to diminish the 
leadership role of that Assistant Secretary.
    Senator Wyden. Well, no quarrel about the fact that 
appointees ought to be able to drive their own priorities, but 
at the same time, shutting down an operation, which is almost a 
conclusion you come to if there are no compliance actions at 
all, is a different story.
    Tell me, if you would Mr. Jones, there are very focused 
criteria to judge compliance with respect to Title IX in 
athletics. What criteria are used now to judge Title IX 
compliance when it comes to academics?
    Mr. Jones. Academics actually have the same criteria for 
compliance, broadly speaking, as all other areas of 
implementation of Title IX, with two exceptions, I would say, 
athletics and vocational education.
    What is notable about both of those areas is the extensive 
legislative history, and in the case of vocational education 
the actual specific statute that was enacted in the late 
seventies relating to vocational education that require 
additional detail, in other words, academics, whether it be 
employment, whether it be scholarships, whether it be 
admissions are all governed by the same standard, the standard 
driven by those words on the blue chart to your left.
    Senator Wyden. Let me talk to you about the situation in my 
home State of Oregon, because I think it sort of reflects again 
why it is hard to see what you call an exercise in delivering 
good news. A report just came out--it was done by the Oregon 
university system--saying, of course, far fewer women than men 
are involved in the field. It said 20 percent of the students 
surveyed, these are the students heading for college in Oregon, 
said that they would major in science and technology, and they 
said only 14 percent of those students were women, and I want 
to read you a couple of comments by those who are involved in 
this work and get your reaction as to whether or not you think 
these are valid concerns.
    I will just quote here. It is from an Associated Press 
article, August 1, 2002, and Mr. Recorder, if we might, let us 
put that into the record at this point.
    [The information referred to follows:]

                  The Associated Press, August 1, 2002

     New Study says more Oregon students plan to major in sciences

                           By Julia Silverman

    PORTLAND, Ore. (AP)--Increasing numbers of Oregon students plan to 
study the sciences in college, a new report from the Oregon University 
System says.
    But far fewer women than men are interested in the field, according 
to the report, which surveyed 800 Oregon College-bound students.
    Overall, 20 percent of the students surveyed said they might major 
in science and technology.
    But only 14 percent of those students are women. The numbers remain 
low despite decades of outreach programs aimed at recruiting more women 
into the sciences.
    Jan Cuny, a professor of computer and information sciences at the 
University of Oregon, said there are a range of reasons woman have not 
historically been drawn to her field.
    ``Exposure that kids have to computers is usually through games,'' 
said Cuny. ``And there are not that many games that appeal to girls. 
Girls may take a little computer science in high school, but guys play 
games, start thinking that graphics are cool, and start programming. By 
the time they get to college, they often have much more experience.''
    There's also a lack of female role models in science fields, and a 
lingering stereotype around computer science students, Cuny said.
    ``The stereotype is the nerd who sits in a cubicle who works 24 a 
day,'' she said.
    Kenneth Krane, a professor of physics at Oregon State University, 
said he thought the numbers were surprising, especially after teaching 
a 500-person Introduction to Physics class that he remembered as evenly 
split between the genders.
    ``The percentage of (science) bachelor's degrees given to women has 
been growing steadily over the past 20 years,'' he said.
    The survey also showed that:
    Seventy-three percent of students planning to major in engineering 
or related fields will attend either an in-state community college or 
four-year Oregon university. Of the students not interested in science 
or technology majors, 66 percent plan to attend an Oregon school.
    Of students interested in science fields and planning to go to a 
four-year in-state school, 56 percent chose OSU, 15 percent picked 
Oregon Institute of Technology, 12 percent enrolled at Portland State 
University, 17 percent chose other four-year schools, and seven percent 
picked a private school in Oregon.

    Senator Wyden. In this article it quotes Jan Cuny, 
professor at the University of Oregon, saying there are a range 
of reasons women have not historically been drawn to our field. 
It quotes Professor Cuny, Mr. Jones, as saying exposure that 
kids have to computers is usually through games. There are not 
that many games that appeal to girls. Girls may take a little 
computer science in high school, but guys play games starting 
to think the graphics are cool and start programming. By the 
time they get to college, they often have much more experience.
    The professor also says there are a lack of female role 
models in the science fields and a lingering stereotype around 
computer science. The stereotype, the professor says, is the 
nerd who sits at a computer in a cubicle who works 24 hours a 
day.
    Do you think these are problems?
    Mr. Jones. Do I think it is a problem that men are 
perceived as the only ones who should enter computer science, 
and that women are discouraged from entering it? I could 
certainly see that as a sociological problem if that is what is 
occurring.
    Senator Wyden. Do you dispute that it is occurring? That is 
what I am trying to find out. I am not talking about a legal 
case. I just read you some very damning statistics from a 
current analysis done by the University of Oregon, then I read 
you from a professor of computer sciences, not somebody with a 
political ax to grind, who said why, and then you said those 
would be problems if they were occurring. Do you dispute that 
these problems are occurring?
    Mr. Jones. Senator, I am just unwilling to generalize from 
the specific to the general based upon one particular area. I 
am also not willing to generalize that personal selection, that 
personal desires about what opportunities one wants to 
undertake are also a relevant issue.
    The majority of people who run donut shops in California 
happen to be Cambodians, half of the dry cleaners in Los 
Angeles are Korean, the majority of the people who run tugboats 
in the New York harbors are of Scandinavian origin, but does 
this constitute a form of discrimination, or is it a form of 
self-selection? It is possibly both, but I do not have the 
information to say.
    By the same token, the fact that 1 percent of women were in 
1971 graduating from computer science programs clearly probably 
indicated there was some level of discrimination going on 
around this country. To what extent does 17 percent today 
constitute that, I cannot say, and it is that balance and blend 
upon which I have to have more information to make a 
generalized conclusion.
    Senator Wyden. I guess I find your analogy with donut shops 
a little troubling. They are not under Title IX criteria. There 
are Federal laws that say people have equal opportunity to 
enter those fields, and the question is whether the 
administration thinks that is what Title IX is all about when 
it applies to math and science, and that is what we are going 
to ascertain in the days ahead, I can assure you of that.
    Let me just move on to one last point, if I might. Mr. 
Jones, Ms. Greenberger said that she was concerned that sexual 
harassment guidelines are under review in your office, and 
obviously this goes right to the heart of the environment that 
Dr. Brown is talking about that encourages people to have an 
opportunity for these disciplines. Is that correct? Are these 
sexual harassment guidelines under review in your office, and 
if so, what areas are you reviewing, and what are the issues 
under consideration?
    Mr. Jones. I am glad you asked me that question, Senator, 
because that has been a question that is raised to us in public 
forums regularly. Let me set the record straight. Those 
documents are not currently under review. By the same token, 
the documents are no longer the state-of-the-art, just as in 
the same way a computer from 1998 is no longer something that 
most folks would accept, or the absence of their Blackberry.
    Those sexual harassment guidances have, in fact, become 
dated not the least of which because the law has changed. Not 
only has No Child Left Behind been passed, but an important 
Supreme Court decision has come down the pipe, and after 
reviewing the sexual harassment guidance it was the view of the 
Assistant Secretary that it would be important to look at where 
we should allocate resources to revise various documents that 
have become out of date.
    The document itself is still available online, but in the 
same way that athletics guidance from the early eighties is no 
longer relevant because of Brown and its progeny of athletics 
Title IX decisions, that guidance we have viewed as no longer 
the state-of-the-art, and while it is still available, it is 
not something that is widely pushed for distribution.
    Senator Wyden. Well, it still looks to me from your answer 
that the issue of sexual harassment is being reviewed as we 
speak by the administration.
    Mr. Jones. No, absolutely not, Senator----
    Senator Wyden. Then correct me if I am wrong, you just said 
that the state-of-the-art had changed and you mentioned several 
statutes. That suggests to me that you are now looking at 
sexual harassment again because, to use your words, the state-
of-the-art has changed. Are you or are you not looking at 
sexual harassment changes?
    Mr. Jones. No, we are not looking at changes to the law. We 
are not looking to change the booklet that was published a few 
years ago in part because that booklet has become outdated, and 
we are continuing to enforce civil rights complaints related to 
sexual harassment. I can say that first hand. I have reviewed 
the complaints, and I have reviewed the cases where we are 
working on that.
    Senator Wyden. So what needs to be reviewed as a result of 
the changes in these laws? Maybe that would be helpful. You 
have said that the laws have changed and, as a result, the 
administration is going to look at it again, but you are also 
saying that you are bringing these actions, so why don't we 
just get a sense from you what is it at this point that you 
think needs to be done, given these new laws that are on the 
books?
    Mr. Jones. Well, right now, and again this is part of the 
planning process we have been engaged in for the last 2 months 
since the Assistant Secretary's team was completed, we are 
looking at all of the publications we put out. We have 
approximately 35 staff here in Washington to develop our 
publications. We just put out a publication on disability 
access for students in higher education, and we are reviewing 
where does the public need guidance, do we need guidance on 
retaliation? Do we need guidance on racial discrimination in 
high schools? Do we need guidance on age discrimination? All of 
these are statutes we enforce. We are looking at where should 
we be putting out new books, new pamphlets.
    If, after that process, we decide sexual harassment is 
where we need a new pamphlet, that is where we will put our 
effort and publish one. If we decide what we need is how to 
understand 504 rights in high school related to transition 
services, that is where we will put out a publication, and that 
is under review right now.
    Senator Wyden. So in your view, with respect to sexual 
harassment rules, the administration is talking about updating 
its pamphlets?
    Mr. Jones. We have looked at that among others. We have 
looked at that among other topics of issuing new pamphlets, but 
right now there is a sexual harassment pamphlet, and we are not 
in the process of changing that pamphlet or writing a new one 
because we have not decided where to focus our priorities.
    Senator Wyden. What else is the administration and your 
office doing on the sexual harassment issue, other than redoing 
the pamphlets?
    Mr. Jones. We are continuing to enforce sexual harassment 
complaints as they come in the door, and we are doing so in an 
aggressive manner.
    Senator Wyden. And nothing else is being changed?
    Mr. Jones. No.
    Senator Wyden. All right. Let us move on to some of our 
other panel members, and Coach Murphy, you sort of have been 
left out of this, and we are going to bring you back in.
    Ms. Murphy. Ask away.
    Senator Wyden. I would ask first if you think progress in 
sports would have been made if there had not been real Title IX 
enforcement?
    Ms. Murphy. Absolutely not, and I think that it goes to 
show that in 1995 that is when women's sports really started to 
take off, after the Brown lawsuit, and I have been at Brown 
since 1987, so I have experienced it in so many ways, and I can 
feel the pain of the scientists, because just imagine being on 
an all-boys team and having them being able to actually take 
shots at you and check, and so it is a little different in the 
physical environment.
    But I do not think if Title IX legislation or challenges to 
the Title IX legal aspect--there is no way, there is just no 
way without Title IX we would even be close to where we are 
today, and I will tell you right now, from what I still 
experience, it is way still existing, and that is why I kind of 
said to him, you have got to keep enforcing it, because the 
only thing right now that schools pay attention to is when the 
NCAA comes in and they do an audit you know where you are on 
Title IX. That is when the schools--I know Brown does, because 
Brown is like, oh my God, we have got to make sure that we are 
in compliance, but other schools really take notice when that 
happens, so absolutely not.
    Senator Wyden. So you see the barriers that Dr. Brown and 
Dr. Richmond have described, and it sounds like we passed this 
way before.
    Ms. Murphy. Oh, God, yes, and I am not sure of the actual 
stats, because I am a coach, I am not a statistician, but I 
think it is only 35 percent are still in compliance with Title 
IX of most athletic institutions, and that is a shame. To start 
Title IX in 1972 and to not have anything happen of substance 
until 1995 is real shameful, and so I feel the pain of the 
engineers and the scientists, and I can only hope that when my 
7-year-old girl grows up, that they are going to be one of 
these guys, because I would encourage them to do that.
    Senator Wyden. Dr. Brown and Dr. Richmond, we have received 
a letter from about 30 distinguished professors around the 
country talking about how serious these problems are with 
respect to the under-representation of women in science and 
engineering and technology. In fact, they actually use a higher 
number of women in engineering than we have been discussing 
today, and they are still extremely alarmed. Is this something 
of growing concern to professors on campus, women in 
particular? Dr. Brown? Dr. Richmond?
    Dr. Brown. Yes, absolutely, and I think that there has been 
sort of a gradual grassroots and then growing public 
recognition through these reports like the MIT report that the 
problems that one believed to be possibly only close to home, 
or in your own environment, or issues that were hard to talk 
about, are, in fact, common problems that can be addressed, and 
so I think there is a recognition on campuses and that on a 
positive note, from many leaders, that improving diversity is 
good for everyone. That improves the research outcomes and the 
education as well, and so absolutely.
    Senator Wyden. Dr. Richmond.
    Dr. Richmond. It is a very serious concern. It is hard for 
me to even articulate all the different stories that come in 
from women faculty, and particularly when it is your students 
that have gone on and faced discrimination in their jobs after 
they have left your institution it is particularly hard to 
listen to.
    COACh conducts workshops, at national professional meetings 
to help women develop strategies to cope with the difficulties 
that they face in their departments. Listening to their stories 
before, and later their stories after our coaching, you just 
are amazed that such little things that we can teach them can 
have such a huge difference in their lives. They go on to 
spread the word to their colleagues.
    But I think what is really important to understand in this 
hearing is again the fact that the scientific enterprise is 
terribly important in this country. We must make certain that 
women are participants in that scientific enterprise. Whatever 
solution or ideas we have that will give women the opportunity 
to be equal players in this field will enable them to do the 
excellent science that this country needs.
    That is what women scientists in this country want. We want 
a level playing field. We do not want to be given special 
circumstances. We do not want to have any standards changed. We 
want to be able to have the opportunity to do our best science 
for ourselves, our children, and our country.
    Senator Wyden. Ms. Greenberger, what kind of facts are 
needed to bring a Title IX case in this area?
    Ms. Greenberger. Well, let me just say one thing about 
bringing a Title IX case first, because there was some 
discussion about lawsuits. There have actually been very few, 
relatively speaking, Title IX cases in any area, including 
athletics, over the last 30 years, although those that have 
been brought have gotten often a lot of publicity, and people 
have paid attention to them.
    And it is because it take so many resources, often by the 
time a case is resolved the student has moved on. Nobody wants 
to take on the school. It is an expensive thing to do, and that 
is where Government enforcement is so important, where doing 
those compliance reviews is so essential, and that is why I 
think it is so important that you are focusing on Government 
enforcement rather than the case per se.
    But what it takes to show a violation of Title IX, whether 
it is in the form of a lawsuit or the Government, showing that 
there is a violation of Title IX obviously depends upon the 
facts and circumstances, but if there is, for example, biased 
counseling, where the school is steering young women out of 
areas of math and science or computers, that is a violation of 
Title IX.
    If, in particular classes, these are for the computer geek 
nerds, guys, and the message to the students that goes out is 
that the guys go to these programs and classes, that is a 
violation of Title IX.
    If faculty mentor male students and not female students, 
and that is allowed to continue, that is a violation of Title 
IX.
    If research dollars in the universities are being steered, 
as I think the MIT study documented, to help male faculty and 
not female faculty, that is a violation of Title IX.
    If women faculty end up with smaller offices, fewer 
research assistants, lower pay, less benefits, again documented 
in the study, that is a violation of Title IX.
    If there is a sense of where the Committee assignments and 
faculties go, and what are the better and worse Committee 
assignments for advancing a career, and those preferable 
Committee assignments go to male faculty over female faculty, 
or in the hiring process, there are people on the recruiting or 
the hiring decision chain who say, women do not belong here 
because they have got their conflicts with family and they do 
not have time in order to put in everything that is necessary, 
that is a violation of Title IX.
    Senator Wyden. Let us do this. There is an important 
procedural vote on the Iraq resolution on the floor now. Do all 
of you have the time to stay? I think I would probably be gone 
about 15 minutes, and if you do, let us take a break for 15 
minutes and then we will come back.
    Ms. Murphy. I am supposed to catch a plane at 6:05.
    Senator Wyden. Let us figure out how to get you out the 
door. Can the rest of you stay another 15 minutes? Then we will 
stand in recess for 15 minutes.
    [Recess.]
    Senator Wyden. Let us come back to order. Thank you all for 
your patience, and we will just have a couple of additional 
questions.
    Senator Bayh, are you satisfied with the progress the law 
has made in the science and engineering area? You were trying 
to solve these problems three decades ago, and made the point 
then that the intent and legislative history was to focus on 
academics. We are all pleased about the tremendous progress in 
sports, but you have correctly said that the focus was 
academics. Are you satisfied with the law's progress?
    Senator Bayh. No, and I say that not to blame someone, but 
to point out reality, and I think having said that I think it 
is important for us to accept your criticisms and the 
observations of at least other Members of the panel. I am sure 
that Mr. Jones will take the message back.
    I am so heartened by what we have done in athletics. I am 
not totally satisfied there, but I think if we apply that same 
degree of enforcement, and you cannot enforce unless you do 
enough reviews to find out if anything is wrong, perhaps more 
attention and resources could go into that.
    Change never comes easily, never has. We had to fight a 
bloody civil war to get rid of slavery, and then it was 100 
years later before we passed the 1964 Civil Rights Act, and 
still we have not been totally successful in wiping out 
discrimination--in fact, we have fallen short of the mark of 
providing equal opportunity for our minority citizens.
    We made great progress in athletics, but we stepped on some 
toes in the process, but that is the price of progress. I would 
hope that this commission that is studying Title IX problem 
would be given free rein to really study it and come up with a 
true assessment of what the members feel individually, or a 
minority and majority.
    I am going strictly on hearsay, but as a person who has had 
a little something to do with this act originally, I think we 
ought to be charging out there full bore to try to do even 
better because we know how.
    I think we have some very credible individuals on that 
commission, but if I understand correctly, they have received 
instructions from the Secretary as to what kind of report they 
should come up with--that they were told they should not reach 
a conclusion, that they should just consider the pluses and the 
minuses of the various points, and that it had to be a 
unanimous report.
    Now, if I am wrong, I would be very glad. I hope I am, but 
if that is true, I think it is keeping that commission from 
doing its job. Forgive me, I guess that is not exactly the 
question you asked.
    Senator Wyden. It makes a pretty important point. It makes 
an important point.
    Senator Bayh. If I am wrong, I am hoping Mr. Jones will 
tell me.
    Senator Wyden. Mr. Jones has chimed in throughout the 
afternoon. He is welcome to chime in again.
    Mr. Jones. Senator, I have not been participating in the 
Title IX commission activities, but I can speak to the issue of 
direction of the commission and the issue of consensus. I do 
know that there is no direction to the outcome of the 
commission, the kinds of findings and the kinds of conclusions 
or recommendations to be made.
    I do know that they are a fact-finding and recommendations 
commission. I can say the Secretary, prefers consensus, and I 
can reflect back to my work with the Special Education 
Commission. Up until the summer I was executive director, and 
the President wanted to see a consensus, because when you can 
get to consensus there is greater power in the voice, and I do 
know the Secretary is interested in seeing consensus around the 
work of his Commission on Title IX Athletics.
    Senator Bayh. We operated in this body, as I recall, and I 
think you still try to, to the best of your ability to operate 
by consensus, so consensus is not new to me. But if, indeed, 
instructions have been given to members of the commission as to 
how they reach that consensus and what they consider and what 
they should not consider, then that worries me.
    Senator Wyden. I think you summed it up, Senator Bayh. I 
sort of majored in consensus. Senator Allen and I tried to be 
bipartisan before it was cool. That is why I listed some of the 
long list of measures we have worked on together for this year 
and a half, but you have got to fight injustice. That is the 
point of the Title IX statute, and I will tell you, Mr. Jones, 
I leave very troubled about the administration's approach on 
this. I want to be very specific about it.
    It seems to me the office was basically shut down for a 
year and a half while everybody was waiting for somebody to 
come on in. You told us what is going on today as you were 
talking about allocating resources for various kinds of 
functions, and it looks to me like problems such as this 
question of the computer science graduates has gotten worse. 
And it does not seem to me that any of this is going to get 
investigated aggressively by your office.
    I hope I am wrong, and time will tell, but I regard this as 
a very critical aspect of this Subcommittee's work, and we have 
worked very closely with a whole host of administration offices 
in the science and technology area, John Marburger, Sean 
O'Keefe, a whole host of officials that worked very 
cooperatively with us. Senator Allen has met me more than 
halfway on these issues, but I am not going to look the other 
way if there is stonewalling on this question of investigating 
and following up the evidence. The environment that Dr. Brown 
was talking about, and looking at the numbers that we have 
heard about today, it looks to me like a very serious set of 
problems that Title IX is designed to address.
    So I think it is only fair that I give you an opportunity 
to have the last word on this, but I leave very concerned about 
how the administration is approaching this on the basis of what 
I have heard today.
    Ms. Greenberger. Senator Wyden, I know you wanted to give 
Mr. Jones the last word, and I just wanted to insert something 
because I respect that, the importance of that.
    You had asked a series of questions about the status of the 
sexual harassment policies, and since that was something that I 
brought up, I did not quite follow some of Mr. Jones' answers 
to your questions, and in particular, I understand his talking 
about pamphlets being updated, but a pamphlet is, of course, 
different than guidance and policy. And my understanding about 
the testimony of Mr. Reynolds during his confirmation hearings 
was specifically directed to the guidance and policy, not 
pamphlets, where he said that it was something that he would 
not commit would not be subject to review, and given the fact 
that it was put on the table, there obviously had been the 
kinds of concerns that were discussed.
    But when Mr. Jones talked about these policies or 
pamphlets, I am not sure which, not being state-of-the-art, the 
sexual harassment guidance was issued in January 2001, so we 
are not talking about policies or guidance from the Seventies 
or the Eighties, we are talking about guidance and policies 
based on the most recent Supreme Court decisions issued in 
January 2001. I simply wanted to insert that, because state-of-
the-art, that is pretty recent state-of-the-art policy 
guidance, and it is not the issue of pamphlets that I think is 
the subject of concern.
    Senator Wyden. Mr. Jones, you have been patient in terms of 
sticking around here for over 2 hours, so let us let you have 
the last word, and this will give you an opportunity to comment 
on the matter of the sexual harassment issue and the comments I 
just finished with respect to the administration's overall 
approach, and please proceed.
    Mr. Jones. You have been very kind, Mr. Chairman, to allow 
me this opportunity at the end of the hearing.
    Let me first get to the issue of whether the administration 
shut down OCR during the first months of this administration. I 
was appointed in June of 2001 as Deputy Assistant for that 
period, and I can say absolutely, unequivocally, that the 
administration continued to aggressively enforce civil rights 
laws and continued to conduct compliance reviews that were 
begun in the years before I arrived.
    I had the honor of signing the last higher education system 
desegregation plan under the Fordice decision with the State of 
Virginia, which has been widely lauded, as well as overseeing 
the resolution of the Maryland universities complaint. We still 
have ongoing resource allocation compliance reviews that were 
started during the late Nineties that we are continuing.
    Senator Wyden. The point that was made, though, and let us 
clarify it, the point was that there were no compliance reviews 
with respect to science and math, those two areas, essentially 
for a year and a half, initiated by the administration. Is that 
correct or not?
    Mr. Jones. That is correct, Senator. I will absolutely 
agree with that, but I wanted to assure you that the 6,000-plus 
complaints a year, we actually increased our timeliness on 
returns on those, and we did well with the compliance reviews 
underway.
    Regarding the sexual harassment guidance and pamphlet, and 
I am sorry if I miscommunicationed, but there are three items 
involved here. There is the 1997 guidance, there is a 1998 
pamphlet, or 1999 pamphlet, and a 2001, quote, ``guidance,'' 
close quote.
    The problem with the 2001 guidance is a matter of our 
obligations under administrative procedures. Any policy adopted 
by our office has to be out for public comment for 90 days. It 
was published on January 19, 2001, but had not been out for 90 
days, and my career lawyers in my office and the career lawyers 
in the Office of the General Counsel said we simply cannot 
enforce under that policy the new interpretation in the 2001 
guidance.
    It very closely aligns with 1997. We still continue to 
enforce that guidance, and we enforce sexual harassment under 
the new Supreme Court decision, but it is the guidance itself 
that did not meet the requirements of law. It is like abiding 
by a treaty that does not have Senate consent. It has not 
reached the status of law.
    This administration is continuing to look at that. It is 
one of the things that we are considering as areas in need of 
guidance, in addition to things like retaliation, in addition 
to disabilities, which are half of our complaints. And with the 
resource comparability. There are many areas we are weighing, 
and shortly we are going to have a plan of what we are 
instituting, new policy guidance in those areas, so sexual 
harassment is on the table.
    I will also say our office has continued to provide regular 
technical assistance in the area of sexual harassment. In fact, 
and you can ask the Ranking Member, we have actually in the 
last year forged an innovative sexual harassment standard 
policy in collaboration with the Virginia School Boards 
Association, which can be used in any school district in 
Virginia, and the School Boards Association is encouraging its 
use. We are offering other States this as a model for their 
activities, so we are out there on the technical assistance 
front as well.
    And lastly, as to whether these are serious issues. I want 
to agree with you, Senator, that we take enforcement very 
seriously. When we see these kinds of things pointed out to our 
office, we take them seriously. Ms. Greenberger's organization, 
in fact, filed with our 12 offices requests for compliance 
reviews. Those are nearing, the 2 months that we have been 
looking at them, a response to which will be going to her 
organization shortly. But I can say we take these kind of 
things very seriously and, given this disparity in computer 
science graduates and the progress followed by decline, if that 
turns out to be the case, I am going to take that back to 
Assistant Secretary Reynolds and review it.
    Senator Wyden. Well, thank you all very much for your 
patience. This is not the last time we are going to discuss 
this in the Subcommittee, and we are adjourned.
    Thank you.
    [Whereupon, at 5:10 p.m., the Subcommittee adjourned.]

                            A P P E N D I X

Prepared Statement of the American Association of Engineering Societies
    The American Association of Engineering Societies (AAES), and its 
member societies want to thank the Committee for holding this important 
hearing on Title IX and the Sciences, and for allowing the following 
testimony to be submitted for the record. AAES applauds this committee 
for its work to increase the presence and retention of women and 
minorities in science and engineering professions, and would like to 
offer our services to this Committee to achieve that goal.
    AAES is a multidisciplinary organization dedicated to advancing the 
knowledge, understanding, and practice of engineering in the public 
interest. Our members represent U.S. engineering-with over one million 
engineers in industry, government and education. Through its councils, 
commissions, committees, and task forces, AAES addresses questions 
relating to the U.S. engineering profession.
    One of the primary goals of AAES is to improve diversity in the 
U.S. engineering profession. In order for the U.S. to remain 
technologically competitive, the engineering profession must better 
engage the knowledge and talents of our diverse population. 
Accordingly, it is imperative that all individuals--without prejudice--
are provided with equality of opportunity to pursue and advance in 
engineering careers.
    AAES strongly supports increasing the strength of the engineering 
workforce by enhancing diversity. By bringing more women and 
underrepresented minorities into the profession, engineering in the 
United States will be better able to solve the problems of the future 
and compete in the global marketplace. Promoting greater diversity in 
the profession requires a consistent, long-term effort focused on the 
education, recruitment, retention, and advancement of all groups, and 
particularly those who historically have been underrepresented. Such an 
approach will require the combined participation of businesses, 
government, professional societies, and the education community.
    As the demographics of the United States continue to change, it is 
very apparent that the numbers of women and minorities in engineering 
at all levels, is not changing with the population. No where is this 
more apparent than in the data from the 2000 Census which shows 
underrepresented minorities now comprise over 25 percent of the U.S. 
population. This proportion is projected to continue upward, primarily 
because of the growth of the Hispanic population. From over one forth 
of the total population, underrepresented minorities comprise nearly 16 
percent of undergraduates in engineering and 12 percent of the 
baccalaureates awarded in engineering in 2000, about half of their 
representation in the total population. Additionally, in engineering, 
women earned 9.7 percent of the bachelor's degrees in engineering in 
1980 and only broke the 20 percent barrier in the year 2000. There are 
some disturbing indications in the undergraduate enrollments of women 
in 2000--their proportion of the total enrollment has declined.
    In an effort to change existing trends, AAES works with other key 
stakeholders to advocate for strengthened math and science education at 
the kindergarten through 12th grade level; works to increase public 
awareness of the engineering profession; and provides information on 
the supply and demand for engineers.
    To ensure a technologically literate society and a high-quality 
workforce, including top-quality engineers, the nation must ensure the 
best possible education and training (including continuing education) 
for people at all levels.
    AAES supports public and private programs that improve the science 
and mathematics achievement of the nation's pre-college students and 
motivates them--with special attention to women and minorities--to 
pursue engineering and scientific careers. Challenging young children 
with high quality math and science education will excite them about 
learning and provide the opportunity to pursue high-wage engineering, 
science and technical careers.
    To ensure a high-quality workforce, there must be appropriate 
public policies and sufficient funding to continue to improve 
undergraduate engineering education programs, to ensure access to 
engineering education for all segments of the population, and to 
increase the attractiveness of engineering graduate study and faculty 
careers for U.S. students.
    AAES encourages the interaction of engineering colleges, industry 
and federal agencies, including the National Science Foundation and 
national laboratories, to improve engineering education and to increase 
the participation of women and minorities, and is committed to policies 
that treat continuing education as an investment, not a fringe benefit. 
For example, the NSF has been proactive in its goal to support more 
women scientists and engineers through specific programs. One such 
program, ADVANCE, supports not only individual women, but activities 
that lead to institutional change.
    In an effort to raise the public's awareness of the engineering 
profession and the specific roles that women and minorities play in it, 
AAES, along with support from the United Engineering Foundation and 
NASA, has established the Voices of Innovation (VOI) Radio Program. 
Each weekday, VOI provides its listeners with a two-minute sound 
portrait of engineering, providing a window into the lives of people 
who transform imagination and ingenuity into technological wonders. 
This daily program keys into the passion, excitement, and genius that 
inspires the men and women who make technological miracles a part of 
our everyday experience. VOI broadcasts began in September of this year 
and are currently heard on more than 40 public and commercial radio 
stations around the nation as well as Voice of America and the Armed 
Forces Radio Network. The initial response to VOI has been encouraging 
and AAES is enthusiastic about its future.
    In order to fully identify and track the issues relating to 
diversity, AAES works with its Engineering Workforce Commission (EWC) 
to collect, store, and disseminate, timely and accurate information 
pertaining to students enrolled in and graduating from accredited 
engineering programs at colleges and universities nationwide. Data on 
the participation of women and minorities are tracked and reported in 
detail to assist policy makers in understanding the trends. The EWC 
annually surveys the U.S. engineering industry, and produces objective 
salary information on engineering professionals and educators. 
Additionally, the EWC produces analysis on the data collected. 
Providing information on the state of the engineering profession, the 
EWC's annual surveys are the most timely, thorough, and accurate data 
available.
    As the Committee tackles the issue of diversity in the sciences, we 
respectfully ask that the following options be considered.

        1. Establishment of public-private partnerships to ensure 
        equality of opportunity and diversity in the sciences at all 
        levels. The partnerships would involve government, industry, 
        relevant associations and individuals who have the common goal 
        of creating a more diverse workforce. The BEST (Building 
        Engineering and Science Talent) Initiative is a prime example 
        of this type of partnership.

        2. Allow federal funding to support single-sex charter schools 
        or single-sex math and science classes. Studies and present day 
        experience have shown that school-aged males and females learn 
        differently, and a single-sex educational environment, 
        particularly in the areas of science and mathematics, has 
        proven to be invaluable to young females. Although their mere 
        existence has been hotly contested, all female charter schools 
        can be found in New York and Illinois and have proven quite 
        successful.

        3. Increased funding of the Math and Science Partnerships 
        Initiative. The Partnerships bring local school districts, 
        university departments of math and science, engineering schools 
        and other interested parties together. The focus of the 
        Partnerships is on both the teachers and students, and due to 
        that, students from a young age are encouraged to pursue their 
        interests in science and mathematics.

        4. Increased institutional graduate support for women at 
        colleges and universities. Successful recruitment and retention 
        of women at the graduate level helps to create the new faculty 
        that we need to attract more women at the undergraduate level 
        to science and engineering. Additionally, college and 
        university leaders must be accountable for the work environment 
        they lead. They must be held accountable under Title IX's 
        provision of continuous improvement of the environment for 
        women, and there are many approaches for doing that for both 
        students and faculty members. For faculty, these include better 
        work-family policies, including tenure clock extensions. For 
        students, these include supporting mentoring opportunities, 
        such as Women in Engineering programs.

    In conclusion, AAES would like to thank the Committee for holding 
this very important hearing on Title IX and the Sciences. Title IX 
states that, ``No person in the United States shall, on the basis of 
sex, be excluded from participation in, be denied the benefits of, or 
be subjected to discrimination under any education program or activity 
receiving Federal financial assistance (20 U.S.C. 38, Section 1681).'' 
As a federation of engineering societies, representing over one million 
individual engineers, AAES completely supports the intent and goals of 
Title IX, and we look forward to working very closely with the 
Committee during its deliberations on this issue.

                                 ______
                                 
Prepared Statement of WEPAN--Women in Engineering Program and Advocates 
                                Network

Statement of Organization and Mission
    WEPAN is a not-for-profit, 501(c)(3) organization founded in 1990. 
WEPAN is dedicated to catalyzing change to enhance the success of women 
of all ethnicities in the engineering profession.
Statement of Position
    Demographic trends indicate that by the year 2005, women will 
represent 62 percent of new entrants into the United States' labor 
force and under represented minorities will represent 51 percent (Judy 
and D'Amico, 1997). In addition, employment opportunities for SMET jobs 
during 1998-2008 are expected to increase by about 51 percent or about 
1.9 million jobs. It is WEPAN's position that policies must recognize 
these demographic shifts and must address systemic changes to meet the 
national need for engineers. Without addressing the lack of women 
studying engineering and the under representation of women in the 
engineering workforce, the gap between the national need and the supply 
of engineers will not change. In essence, we put the nation as risk.
    A principal effect of these population changes based upon recent 
trends and projections for coming decades, is that engineering's 
traditional talent pool of Caucasian men is rapidly becoming 
insufficient to meet future demands in both industry and academia. It 
is therefore imperative that greater emphasis be placed upon preparing 
the women and minorities who will be a majority of the available 
workforce to enter these fields--and whose representation within 
engineering has grown steadily, if slowly, in recent decades.
    Women remain severely under represented at all levels in the U.S.: 
representing 9 percent of the engineering workforce; 20.5 percent 
baccalaureate degree recipients, 22 percent master's degree recipients, 
and 14.7 percent of doctoral degree recipients. (Engineering Workforce 
Commission of the American Association of Engineering Societies, Inc., 
2001)
    The response by policy-makers must, therefore, be viewed as a 
national priority. Policies must go beyond simple encouragement, which 
thus far has proven inadequate in bringing women to the engineering 
classrooms, laboratories and workforce. Beyond numbers, women represent 
a vital source of intellectual talent that cannot go untapped any 
longer.

Recommendations for Policy
    WEPAN recommends the adoption of national, state and local policies 
that serve significantly to enhance science and mathematics education 
at all grade levels, while aggressively implementing initiatives that 
will increase enrollment and retention of women in engineering at the 
college level. We need to increase the public awareness of the role and 
mission of engineers so that ``being an engineer'' means something 
tangible to the general public. To encourage girls and women to 
consider and pursue careers in engineering, WEPAN believes that 
policies must address the two broad areas:

  <bullet>  The popular understanding of what engineering is, who 
        engineers are, and how they contribute to society.

  <bullet>  The ``culture'' in which engineering is taught at the 
        university level.

Popular Understanding of Engineering and Precollege Outreach
    Only 8 percent of ALL students taking the SAT intend to major in 
engineering. Of this group, 19 percent are girls of all races and 
ethnicities. Girls are taking the necessary math and science classes in 
secondary school to major in engineering. Over 40 percent of high 
school physics and calculus students are girls (NSF, 1999; American 
College Testing, 1998). Girls are prepared for engineering majors. They 
are just not interested. Engineering is currently failing to interest 
students, male or female in becoming engaged in the profession. This 
general lack of interest may be attributed to a lack of awareness. In a 
1998 Harris Poll, 61 percent of Americans described themselves as ``not 
very well informed'' or ``not at all informed'' about engineering and 
engineers. Among women, the percentage increased to 78 percent 
respectively; among college graduates, 53 percent.
    Addressing problems of how engineers and engineering are understood 
and perceived could be addressed, at least partly, through simple 
interaction (by students and their teachers alike) with representatives 
from within the field. Another avenue is reaching out to media- and 
tech-savvy youth of the early 21st century in ways they can understand. 
Depictions of science, engineering and technology in movies and 
television are more present than ever before in medical and crime 
shows. Sept. 11, 2001, has been accompanied by heightened visibility 
and increased public discussion and debate, both of which create 
opportunities for expanded understanding of the role of science and 
engineering in our daily lives. Educators and practitioners should 
capitalize on these opportunities that are relevant to young people.
    Programs that supplement the science and math curricula in lower 
grades, provide mentoring at all levels, enlighten students about the 
importance of science and technology to society, and educate students 
about the broad range of career opportunities in engineering, need to 
continue to increase the representation of women in engineering. 
However, outreach alone is not sufficient to affect meaningful change. 
After-school programs or summer camps, while a valuable component, are 
not going to increase participation in numbers adequate to address the 
problem on a national scale.
    What is called for, instead, is a systemic shift toward engagement 
with teachers, schools and entire school systems. Educators from 
kindergarten through graduate school must join with professional 
engineers in developing an innovative approach that is dynamic, 
systemic and synergistic. For example, Massachusetts has taken the lead 
by incorporating engineering principles as part of the states' 
educational standards, a first in the US. Texas has also taken a step 
in this direction by accepting an engineering based course as a science 
credit at the high school level.

University Culture
    Addressing issues of the engineering ``culture'' in the university 
environment is imperative to ensure the long-term success of women who 
enter the field. The difficulties women students experience in 
attempting to retain their intrinsic interest in science and 
engineering in environments that undercut their confidence, motivation, 
and sense of belonging in the field, pose formidable obstacles to their 
completion of academic training and/or satisfactory performance in 
engineering careers.
    Research strongly suggests that factors unrelated to academic 
performance are largely to blame for a disproportionate drop out rate 
among women engineering students:

  <bullet>  According to the 1998 report, Women and Men of the 
        Engineering Path, women and men earn similar grades in 
        engineering courses, and women who leave engineering have 
        higher grades than men who leave. It is not, therefore, poor 
        academic performance that drives women out of engineering, but 
        higher levels of dissatisfaction.

  <bullet>  The persistence rates for women in math, science and 
        engineering programs range from 30 to 46 percent, depending on 
        the type of institution--far below the 39- to 61 percent rate 
        for their male counterparts (Adelman, 1998).

    A 1998 national pilot climate study by WEPAN found that, although 
male and female students responded similarly in many cases, perceptions 
of their college experience differed widely. Women, for example, 
generally rated their experience lower in areas relating to feelings of 
self-confidence, such as comfort level with lab equipment, the sense 
that engineering is the ``right'' major, and participation in classroom 
discussion. Many institutions participating in the pilot study have 
recommended changes at their institutions based on its results 
(Brainard, et.al., 1999).
    The recently released Goodman Research Group's (GRG) final report 
on the Women's Experiences in College Engineering (WECE) Project (2002) 
provides comprehensive quantitative evidence that women's assessments 
of (1) their self-confidence in their academic abilities, (2) the 
engineering department environment, and (3) the engineering classroom 
environment are vital factors in their persistence in engineering 
majors. The study also demonstrates that women who participate more 
frequently in engineering support activities, particularly those 
combining social and academic interaction, are less likely to leave 
engineering majors. As both Adelman (1998) and Goodman (2002) have 
documented, women students are not leaving engineering because they 
cannot make the grade or find the curriculum too challenging. Instead, 
it is the lack of social interaction and sense of community within the 
field of inquiry, and the divorce of curriculum from real work 
application (Goodman, 2002).
    Margolis and Fisher's 2001 book, Unlocking the Clubhouse, asserts 
that confidence issues for women in computer science require and 
deserve institutional responses of attention, intervention, and 
remediation. In their well-structured longitudinal study, Margolis and 
Fisher explore multiple dimensions of this issue in careful detail. 
Their findings also counter casual myths (e.g., about the so-called 
``natural'' distribution of interest and aptitude) that have inhibited 
or misdirected earlier remedial efforts. Further, their model of 
undergraduate recruitment and retention raises the enrollment of women 
in undergraduate computer science from 7 percent in 1995 to 42 percent 
in 2000. And Fisher's work at Carnegie Mellon University provides a 
host of recommendations on how institutions can change the quality of 
the student experience to further promote gender equity in STEM 
(science, technology, engineering, mathematics) education.
     Identifying recommendations and policies that can affect the 
culture within universities is no small task. WEPAN proposes the 
following:

  <bullet>  Link research funds to first- and second-year retention of 
        engineering students in the researcher's home institution.

  <bullet>  Require that universities collect and publish data that is 
        disaggregated by race and gender. A standard definition of 
        first-and second-year retention would need to be defined and 
        observed;

  <bullet>  Evaluation criteria for research grants should include 
        status or improvement in enrollment, retention and graduation 
        rates of undergraduate and graduate women and under represented 
        minorities

  <bullet>  Performance evaluation for department heads within 
        universities should include status or progress of recruitment, 
        retention, and promotion of women faculty.

  <bullet>  Funding agencies should review guidelines and expand 
        criteria to include the replication of tested programs and 
        initiatives, not just a focus on new and original ideas.

    WEPAN's final recommendation bridges public awareness, pre-college 
outreach, and university culture of engineering. At this time, the 
focus continues to be the pipeline. How do we get more kindergarten 
students to develop and sustain their interest in engineering. Most 
students do not have an opportunity to fully explore engineering until 
they reach college. All students, but girls in particular are not ready 
to narrow their choices and select a major such as engineering that 
precludes study in other areas. When students are asked to declare a 
major, given the stereotypes, lack of awareness, and male dominated 
environment, the choice to major in engineering loses far too often, 
particularly among women and people of color. It is time to develop 
alternate pathways and frameworks at the college level that can engage 
students in engineering beyond the first or even second year of 
college. Given the rigorous curriculum, this is a challenge. But 
engineers always meet challenges and we implore them to do so. Too many 
creative minds are being lost in the current process.
    Since 1990, WEPAN has taken the lead in promoting change to 
increase the number and success of women in engineering. Our impact has 
been significant; yet, the systemic change now needed will require 
collaborative efforts and, more importantly, policy changes that have 
the real power to positively impact the demographics of tomorrow's 
engineering and science workforce.

References
    Adelman, C. (1998). Women and Men of the Engineering Path: A Model 
for Analyses of Undergraduate Careers, Washington, DC: U.S. Department 
of Education and The National Institute for Science Education.
    American College Testing. (1998). Are America's students taking 
more science and mathematics coursework? ACT Research Report Series 
98.2 Available on line at: http://www.act.org/research/briefs/98.2.html
    Brainard, S., Gilmore, G., Metz, S. (1999, June). National WEPAN 
Pilot Climate Survey: Exploring the Environment for Undergraduate 
Engineering Students. WEPAN National Conference Proceedings, San 
Antonio, Texas.
    Engineering Workforce Commission of the American Association of 
Engineering Societies, Inc. (2001). Washington, DC, 2001.
    Goodman, et. al. (2002) Women's Experiences in College Engineering 
(WECE) Project 2002, http://www.grginc.com/WECE_FINAL_REPORT.pdf
    Judy, R. and D'Amico, C. (1997). Workforce 2020: Work and Workers 
in the 21st Century. Hudson Institute: Indianapolis, IN.
    Margolis, J. and Fisher, A. (2002). Unlocking the Clubhouse-Women 
in Computing, Cambridge, Massachusetts: MIT Press.
    National Science Foundation. (1999). Women and minorities and 
people with disabilities in science and engineering, 1998. Arlington, 
VA.
    Strenta, C. (1993). Choosing and Leaving Science in Highly 
Selective Institutions: General Factors and the Questions of Gender. 
New York, NY: Alfred P. Sloan Foundation.

                                  <all>

</pre></body></html>
